<html>
<title> - NORTH AMERICAN COOPERATION ON THE BORDER</title>
<body><pre>[Senate Hearing 109-423]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-423

                NORTH AMERICAN COOPERATION ON THE BORDER

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                             JULY 12, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
28-131 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Aguilar, David V., Chief of the Office of Border Patrol, Customs 
  and Border Protection, Department of Homeland Security, 
  Washington, DC.................................................    47
    Prepared statement...........................................    49
Beatty, Hon. Perrin, P.C., president and CEO, Canadian 
  Manufacturers and Exporters, and former Foreign Minister, 
  Ottawa, Canada.................................................    16
    Prepared statement...........................................    19
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........    34
Castaneda, Hon. Jorge, Global Distinguished Professor of Politics 
  and Latin American and Caribbean Studies, New York University, 
  and former Foreign Minister, Mexico City, Mexico...............    22
    Prepared statement...........................................    24
Cornyn, Hon. John, U.S. Senator from Texas.......................     9
    Prepared statement...........................................    11
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    26
    Prepared statement...........................................    31
Harris, Hon. Katherine, U.S. Representative from Florida.........    13
    Prepared statement...........................................    15
Kennedy, Hon. Edward M., U.S. Senator from Massachusetts.........     3
    Prepared statement...........................................     5
Lugar, Hon. Richard G., U.S. Senator from Indiana................     1
McCain, Hon. John, U.S. Senator from Arizona.....................     6
    Prepared statement...........................................     7
Nelson, Hon. Bill, U.S. Senator from Florida.....................    32
    Prepared statement...........................................    33
Obama, Hon. Barack, U.S. Senator from Illinois...................    37

             Additional Statement Submitted for the Record

Statement of the North American Business Committee of the Council 
  of the Americas................................................    59

                                 (iii)



 
                NORTH AMERICAN COOPERATION ON THE BORDER

                              ----------                              


                         TUESDAY, JULY 12, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee) presiding.
    Present: Senators Lugar, Biden, Dodd, Nelson, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Foreign Relations 
Committee is called to order. Today the committee meets to 
examine the cooperation between the countries of North America 
on border security. Our Nation is inextricably intertwined with 
Mexico and Canada historically, culturally, and commercially. 
The Department of Transportation reports that goods worth more 
than $633 billion crossed our land borders in 2004 alone. 
According to the Census Bureau, more than 26 million of the 39 
million individuals of Hispanic origin who are legal residents 
in the United States are of Mexican origin.
    The flow of goods and people across our borders helps drive 
our economy and strengthen our culture. But our land borders 
also serve as a conduit for illegal immigration, drugs, and 
other illicit items. Given the threat of international 
terrorism, there is great concern that our land borders could 
also serve as a channel for international terrorists and 
weapons of mass destruction.
    The threat of terrorist penetration is particularly acute 
along our southern border. In 2004, fewer than 10,000 
individuals were apprehended entering the United States 
illegally through our 5,000-mile land border with Canada. This 
compared with the more than 1.1 million who were apprehended 
while trying to cross our 2,000-mile border with Mexico.
    The Department of Homeland Security reports that about 
996,000 of these individuals were Mexicans crossing the border 
for economic or family reasons. The Homeland Security 
Department refers to the rest as, ``other than Mexicans,'' or, 
``OTMs.'' Of the approximately 100,000 OTMs apprehended, 3,000 
to 4,000 were from so-called countries of interest, like 
Somalia, Pakistan, and Saudi Arabia, which have produced or 
been associated with terrorist cells.
    A few of the individuals that have been apprehended at our 
southern border were known to have connections to terrorists or 
were entering the United States under highly suspicious 
circumstances. For example, one Lebanese national who had paid 
a smuggler to transport him across the United States-Mexican 
border in 2001 was recently convicted of holding a fundraiser 
in his Michigan home for the Hezbollah terrorist group.
    In July 2004, a Pakistani woman swam across the Rio Grande 
River from Mexico to Texas. She was detained when she tried to 
board a plane to New York with $6,000 in cash and a severely 
altered South African passport. Her husband's name was found to 
be on the terrorist watch list. She was convicted on 
immigration charges and deported in 2004.
    Since September 11, 2001, progress has been made in 
deterring cross-border threats while maintaining the efficient 
movement of people and cargo across North America. The United 
States signed Smart Border Agreements with Canada and Mexico in 
December 2001 and March 2002 respectively. These agreements 
seek to improve prescreening of immigrants, refugees, and 
cargo. They include new documentation requirements and 
provisions for adding inspectors and updating border security 
technologies. We have also established Integrated Border 
Enforcement Teams to coordinate law enforcement efforts with 
Canada.
    Additional initiatives are included in the President's 
Security and Prosperity Partnership of North America Agreement 
announced on March 23, 2005, at the North American Summit 
meeting in Texas.
    But additional work lies ahead. We must sustain attention 
and accountability at home for enhancing our continental 
security, and continue to press our neighbors for improved 
cooperation in combatting security threats. To advance these 
goals, earlier this year I introduced the North American 
Cooperative Security Act, S. 853. This bill seeks to: First, 
improve procedures for exchanging information on border 
security with Canada and Mexico; second, establish a program 
that will assess the needs of Guatemala and Belize in 
maintaining the security of their borders and provide technical 
and law enforcement assistance to aid in the maintenance of the 
Mexican-Guatemalan and Mexico-Belize borders; third, improve 
our military to military relations with Mexico; and fourth, 
establish a database to track the movement of members of 
Central American gangs between the United States, Mexico, and 
Central American countries.
    Among other provisions, the bill requires U.S. Government 
agencies to develop a strategy for achieving an agreement with 
the Mexican Government on joint measures to impede the ability 
of third country nationals from using Mexico as a transit 
corridor for unauthorized entry into the United States. In 
essence, with this legislation I am emphasizing that greater 
cooperation with our neighbors is necessary to achieve border 
security.
    This morning we are joined by three distinguished panels to 
discuss cooperation on North American border security. First, 
we welcome our distinguished congressional colleagues: Senator 
John McCain, Senator Ted Kennedy, Senator John Cornyn, and 
Representative Katherine Harris. Representative Harris is the 
sponsor of the companion bill to S. 853 in the House. Each has 
worked extensively on issues related to border security and 
immigration, and we are pleased that they are with us.
    On the second panel, we will hear from two distinguished 
former Foreign Ministers from Canada and Mexico who have dealt 
extensively with border issues. We will welcome the Honorable 
Perrin Beatty, former Foreign Minister of Canada and currently 
the president and chief executive officer of the Canadian 
Manufacturers and Exporters Association; and the Honorable 
Jorge Castaneda, former Foreign Minister of Mexico and 
currently an independent candidate for president of his 
country.
    On the third panel we will hear from two administration 
witnesses with key responsibilities for securing our borders. 
We will welcome Roger Pardo-Maurer, the Deputy Assistant 
Secretary of Defense for the Western Hemisphere, and David 
Aguilar, Chief of the Office of Border Patrol in the Department 
of Homeland Security.
    We thank all of our witnesses. We look forward to their 
insights. I call now upon the first of the distinguished 
colleagues who are before us today.
    Let me pause for just a moment. Do you have a comment, 
Senator Nelson?
    Senator Nelson. Just a couple. Thank you, Mr. Chairman, for 
having this hearing. We clearly have a reason to protect our 
borders. The question is how, with 8 to 10 million undocumented 
workers in this country.
    When Senator McCain was the chairman of the Commerce 
Committee he held a hearing and we were all just astounded to 
hear the testimony that hundreds of people were coming across 
the border just in one section of the Arizona-Mexico border. 
So, clearly, we have some reason for improvement. So thank you 
very, very much for holding this hearing, Mr. Chairman.
    The Chairman. I thank you, Senator Nelson, for being here 
right from the start. We appreciate it.
    Senator McCain.
    Senator McCain. Given his seniority and advanced age, I 
would ask that Senator Kennedy go first. [Laughter.]
    The Chairman. Very good reasoning. Senator Kennedy.

    STATEMENT OF HON. EDWARD M. KENNEDY, U.S. SENATOR FROM 
                         MASSACHUSETTS

    Senator Kennedy. Flattery, but I recognize where the power 
is around here. John, why don't you go first.
    Senator McCain. No.
    Senator Kennedy. Mr. Chairman, thank you very much, and 
thank my colleagues as well that joined on this panel here and 
the others that are testifying. This whole issue of national 
security and immigration and how we are going to retain our 
longstanding historic tradition as a country of refuge that has 
recognized hardworking people that want to come here and make a 
contribution and make the country better is in conflict at the 
present time.
    I think this hearing is of enormous importance because it 
recognizes that we have to work with other countries. We cannot 
solve the problems of immigration or immigration reform or 
border security by ourselves. We need active cooperation with 
Canada, Belize, Guatemala, and Mexico, as you have outlined in 
your own program. Many of the ideas that you have in your own 
program are ideas that Senator McCain and I have incorporated, 
in our legislation.
    So we want to first pay tribute to you and the committee 
for recognizing that whatever we are going to do to secure our 
borders has to be done in relationship both with Canada and 
Mexico, and also with the countries of Central America.
    The idea that we are going to be able to enforce our 
borders to limit the numbers of illegal people, hopefully, is 
an idea that has passed, because it does not work. We have 
spent $20 billion over the last 10 years in trying to solve our 
problems with enforcement alone. We are building a fence down 
in Mexico, but it is 1,800 miles, 4,200 miles in Canada. We do 
not have enough fence, we do not have enough troops to guard 
our borders.
    If we are interested in national security--and this has 
been the area that Senator McCain has been a leader on in our 
committee and also in the working through of this program--we 
have to control our borders. If we are going to be interested 
in where we are going in terms of our economy, we have to 
control our borders. It is not open borders or closed borders; 
it is smart borders.
    The idea that we have well-trained, well-disciplined border 
guards down there chasing after gardeners and bartenders across 
the deserts in the South is just ridiculous. They ought to be 
doing what they have been trained for and that is searching out 
the dangerous individuals in al-Qaeda and those terrorists that 
are coming across our border, and that is not what is happening 
today.
    That is why Senator McCain and I have proposed legislation 
that understands, number one, that successful legislation 
depends upon cooperation and active involvement by Mexico and 
the countries in Central America, as well as Canada, but quite 
frankly the areas of greatest challenge are on the border on 
the South. Number two, our bill has a fair and reasonable 
temporary worker program and permits earned legalizations for 
the 11 million people that are here. This is not an amnesty 
program. No one gets a free ride. No one goes to the head of 
the line. No one gets a free pass on this.
    Individuals have to demonstrate that they are here, that 
they have worked, that they are clear in terms of national 
security, and then they have to have an earned record for a 
number of years, for the 4 years before they even get on the 
road toward working for a green card, 11 years before they even 
have the chance of citizenship. Finally, number three is the 
visa reform.
    We believe that this is the only true way that we can 
comply with, one, national security issues; two, the control of 
our borders; three, working out a fair and just system which 
can help American companies and industries; and finally, be 
true to a longstanding honorable immigration policy which has 
recognized that people come here who have skills, who want to 
work, and want to contribute to this country.
    We are looking forward to working with this committee, 
Chairman Lugar. Chairman Specter has set a date of July 26 for 
a hearing on this proposal. We are eager to work with our 
colleagues on the Judiciary Committee and to work with this 
committee to try and bring American border security, 
immigration reform, and fairness and justice for people, 
bringing them out of the shadows so that they can play a 
constructive role in terms of our American tradition and 
history and economy.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Kennedy follows:]

    Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator From 
                             Massachusetts

    Mr. Chairman, thank you for the opportunity to testify on the 
importance of improving cooperation among the North American 
governments on border security and immigration reform.
    The United States, Canada, and Mexico have a proud history of 
friendship and mutual cooperation. Our countries share the world's 
longest nonmilitarized borders and we are historically and economically 
interdependent.
    After September 11, our governments worked closely together to 
increase coordination and communication to address terrorist threats. 
With Canada, we have entered into numerous joint initiatives to improve 
the management of our borders, such as the Shared Border Accord, Border 
Vision, and other ``smart border'' accords to share intelligence and 
strengthen border security.
    The United States and Mexico have also taken significant steps 
toward improving security. These are important achievements that have 
helped to make us all safer, but much more needs to be done. I'm 
particularly concerned that we have done little to address the 
longstanding problem of illegal immigration.
    In the last 10 years, we have spent more than $20 billion to 
enforce our immigration laws. Yet, our efforts have not been adequate. 
We've tripled the number of border patrol agents, and tried countless 
measures to strengthen border enforcement. We are even building a 
fence. Yet, illegal immigration continues. The proof is in the 
numbers--nearly 11 million persons are living in the United States 
without authorization. Those already here are not leaving, and new 
immigrants keep coming in.
    Every year, thousands of Mexicans and others come to the United 
States, to work and join their families. Illegal immigration has been 
averaging 485,000 persons a year. To deal with the growing numbers of 
unauthorized workers, we have to modernize our laws to meet the 
challenges of the 21st century. Reforming our immigration laws will 
improve the security of each of our countries, strengthen our 
economies, restore control over our borders, and end the rising number 
of deaths.
    It's essential that we work with Mexico and Canada on migration 
problems and enforcement. A major mistake we made in the past is to 
assume we can control illegal immigration on our own. America needs to 
do its part, but Mexico and other nations must do their part, too, to 
replace illegal immigration flows with regulated, legal immigration.
    Mexico's southern border is increasingly being used as a transit 
corridor for third country nationals attempting to enter the United 
States illegally. The Border Patrol estimates that they will apprehend 
nearly 150,000 non-Mexicans crossing our southern border this year--a 
200-percent increase over last year. We need to work with Mexico to put 
an end to this problem. We also need to work with Canada and Mexico to 
help the Central American countries maintain the security of their 
borders.
    Without cooperation from neighboring countries, immigration reforms 
adopted unilaterally by the United States are less likely to succeed. 
Bilateral and multilateral agreements provide a framework for 
cooperation and are more likely to result in secure borders and safe 
and legal immigration.
    The overwhelming majority of people crossing illegally into the 
United States are from Mexico, Central America, and the rest of Latin 
America. They come here seeking work and an opportunity to help their 
families. The United States should enter into agreements with these 
countries to help control the flow of their citizens to jobs here, and 
encourage the reintegration of their citizens returning home. We must 
restore the circular migration patterns that once existed between the 
United States, Mexico, and other Central American countries.
    We cannot continue to throw money at border enforcement as our 
primary means for reducing illegal immigration. Nor can we continue to 
legislate more and more enforcement measures on top of a broken system.
    We need realistic immigration laws that provide legal means for 
qualified immigrants to enter America, and strong enforcement of those 
laws. By restoring control of our borders, we will also improve our 
national security and strengthen our economy.
    Three essential components of any effective proposal for reform are 
a fair and generous temporary worker program, an earned legalization 
program for undocumented workers, and reform of our immigrant visa 
system. These measures will reduce the current illegality and chaos and 
provide safe, legal, and orderly avenues for persons to enter the 
United States. They will also free up resources to allow our border 
agents to focus on terrorists, drug smugglers, and violent criminals.
    We must also encourage the U.S. Government to partner with Mexico 
to promote economic opportunity in Mexico and reduce the pressure for 
its citizens to emigrate. The special relationship between our two 
countries will be strengthened if we assist the Government of Mexico in 
improving the lives and raising the standard of living of its people.
    John McCain and I have included all of these proposals in our 
bill--the ``Secure America Act.'' Our bill also contains important 
provisions that we have included from Chairman Lugar's legislation--the 
``North American Cooperative Security Act''--to address North American 
cooperation. Effective enforcement of our immigration laws depends upon 
the participation and commitment of neighboring governments.
    Thank you for the opportunity to testify, and I look forward to 
working with you to enact these responsible and long overdue reforms to 
deal with these main challenges.

    The Chairman. Thank you very much, Senator Kennedy. We are 
looking forward to working with you, and I appreciate your 
description of your progress. I call now on your colleague, 
Senator McCain.

    STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you very much, Senator Lugar, and I 
would like to thank you for your long involvement in this 
issue. Your legislation that requires and encourages 
cooperation between our neighbors to the North and South 
addresses vital aspects of any enforceable and workable 
immigration reform and I thank you for all of your efforts in 
that direction.
    There is not a lot I could add to what Senator Kennedy 
said, except to point out that this is an issue of national 
security, it is an issue of humanitarian interest, it is an 
issue that affects our economy, and literally in the Southwest 
and now across the Nation, this is an issue affecting 
everything, including health care costs and law enforcement 
costs.
    If you walk down the street in Phoenix today, Mr. Chairman, 
and asked, ``what is the number one issue facing your State,'' 
it would not be Social Security; it would be immigration reform 
because of the enormous impact, ranging from health care costs 
for treatment of illegal immigrants to law enforcement costs. 
Just 2 weeks ago, 79 people were found in a Phoenix alley 
crammed into a commercial horse trailer. The heat was over 100 
degrees. They had been there for several days. Of the 79, 11 
were children, including a 4-month-old baby.
    This has so many ramifications associated with it. I would 
not want to take too much time of the committee to go through 
them all. I think that Senator Kennedy and I and others who 
have cosponsored, including Senators Brownback, Lieberman, 
Graham, and Salazar, have come up with a balanced approach. We 
are not saying it cannot be improved, but it has three key 
aspects.
    First and most important of all is obviously security. 
There is a national security issue here. More and more people 
are crossing our borders that the Director of the FBI says are 
from, ``countries of interest.'' We know that. We have to 
enforce our border. We will never win the war on terror unless 
we enforce our border. Anybody who believes that Senator 
Kennedy's and my proposal does not address that, first and 
foremost, has not read the bill.
    The second key component is matching employers with 
employees coupled with strong interior enforcement. We believe 
that is fairly easy to do. The bill requires the development 
and implementation of a mandatory employment verification 
system using tamper-resistant biometric machine-readable 
identification. Employers will have concrete confirmation the 
individual they hire is authorized to work or is not. As the 
President has stated many times, it is important to match 
willing workers with willing employers.
    Then finally, Mr. Chairman, there are 10 to 11 million 
people, as Senator Kennedy already stated, who are living in 
the shadows of our life in America and our economy, falling 
prey to anyone who wants to exploit them. They live in the 
shadows. We have a national interest in identifying these 
individuals, providing them with incentives to come out of the 
shadows, to go through security background checks, pay back 
taxes, pay penalties for breaking the law, learn to speak 
English, and regularize their status. We have to do that.
    Anybody that believes you are going to round them up and 
send them back to Guatemala or wherever they came from, 
obviously has not even a rudimentary understanding of the 
issue.
    Finally, Mr. Chairman, if I might, could I read you an 
article--passages from an article that was in the Arizona 
Republic: ``205 Migrants Die Hard, Lonely Deaths.'' The article 
says: ``It is a lonely place to die out in the soft, sandy 
washes. The desert floor with its volcanic rock can reach 160 
degrees. Most people go down slowly. Blood starts to seep into 
the lungs, exposed skin burns, and the sweat glands shut down. 
Little hemorrhages, tiny leaks, start in the heart. When the 
body temperature reaches 107, the brain cooks and the delirium 
starts.
    ``Some migrants claw at the ground with their fingernails, 
trying to hollow out a cooler spot to die. Others pull 
themselves through the sand on their bellies like they are 
swimmers or snakes. The madness sometimes prompts people to 
slit their own throats or hang themselves from trees with their 
belts.
    ``This past year the bodies of 205 undocumented immigrants 
were found in Arizona. Official notations of their deaths are 
sketchy, contained in hundreds of pages of government reports. 
Beyond the official facts, there are sometimes little details, 
glimpses of the people who died. Maria Hernandez Perez was 
number 93. She was almost 2. She had thick brown hair and eyes 
the color of chocolate. Chalea Valasquez Gonzalez, 16, carried 
a Bible in her backpack. She was 107.''
    Mr. Chairman, this is a human tragedy. Today someone will 
die in the desert in Arizona. It is obvious that this is a 
national security issue, it is an economic issue, and it is a 
humanitarian issue. We need to act. I am very grateful that you 
have taken such an active role on this issue. We need now for 
us to come together on this issue and bring action to the floor 
of the Senate.
    I think we have waited long enough. I thank you, Mr. 
Chairman.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona

    Mr. Chairman, I would like to thank you for the opportunity to 
testify before your committee today. This is a timely and important 
hearing you are chairing, and the reason is obvious: Our immigration 
system is broken. Made up of laws that are unrealistic and often 
unenforceable, reforming it is one of the most critical issues facing 
America today.
    Illegal immigration, in the numbers we are witnessing today, 
represents a threat to our national security, to our economy, to our 
health care system, and to state and local government budgets. It also 
poses a humanitarian crisis that anyone with basic human compassion 
must seek to address. These are the reasons why, Mr. Chairman, if you 
walk down the streets of my home State of Arizona and ask people what 
issue most concerns them today, they won't say Social Security, or the 
economy, or even the war on terror, Mr. Chairman, they'll say it's 
immigration.
    Let me mention just a few statistics:

  <bullet> Last year more than 300 people died trying to cross our 
        southern border, and more than 200 of those deaths occurred in 
        Arizona's desert. This year those numbers are expected to 
        increase.
  <bullet> An estimated 3,000 people enter the United States illegally 
        from Mexico every day.
  <bullet> Last year 1.1 million illegal immigrants were caught by 
        Border Patrol, and more than half of those were in Arizona.

    The stories of tragedy along the border add a compelling human 
component to this issue:

  <bullet> Several weeks ago, 79 people were found in a Phoenix alley 
        crammed into a commercial horse trailer. The heat was over 100 
        degrees and they had been there for several days. Of the 79, 11 
        were children, including a 4-month-old baby.
  <bullet> At the beginning of the summer, when the temperature in the 
        desert rose unexpectedly, 12 people died crossing into Arizona 
        in one weekend.

    I could go on, Mr. Chairman, but let me move on to what I believe 
we need to do to fix this badly broken system. Senator Kennedy and I, 
along with Senators Brownback, Lieberman, Graham, and Salizar, and 
Congressmen Kolbe, Flake, and Gutierrez, recently introduced the Secure 
America and Orderly Immigration Act. This bill is bipartisan, it is 
bicameral, and it will fix our immigration problems by coupling tough 
enforcement at the border with badly needed revisions to our obsolete 
immigration laws.
    Enforcement, Mr. Chairman, is so key to what we are trying to 
accomplish with this bill, that we lead with enforcement. The first two 
titles of our bill deal solely with border security efforts.
    Our border enforcement section requires the Department of Homeland 
Security to develop and implement a National Strategy for Border 
Security, to develop and implement a program that will provide federal 
officials with continuous border surveillance by using unmanned aerial 
vehicles (UAVs), and that will better improve coordination among 
Federal, State, local, and tribal border governments,
    The international border security portion of this bill includes key 
provisions authored by Chairman Lugar in S. 853, the North American 
Cooperative Security Act, which I was pleased to join in cosponsoring. 
These provisions construct a framework for the United States to work 
with Mexico, Canada, and Central American countries to improve security 
at our borders and to crack down on human smuggling, drug trafficking, 
and gang activities.
    Recognizing that the United States cannot solve this problem alone, 
we also included directives for the administration to work with Mexico 
and other sending countries to work together to reduce illegal 
migration and establish economic incentives for temporary workers to 
return home. It also acknowledges the specific need to work with the 
Government of Mexico which must play a much greater role in securing 
its own borders and helping to combat illegal immigration and 
strengthen the security of our hemisphere. And I would like to commend 
Mexico for recently announcing the addition of 51 new Border Patrol 
agents who will be deployed to Mexico's southern border with Guatemala.
    Another problem with our current system is that employers have 
plausible deniability when it comes to hiring illegal immigrants. A 
wink and a nod is all it takes. Recognizing this, our bill requires the 
development and implementation of a mandatory employment verification 
system using tamper-resistant, biometric, machine-readable 
identification. Employers will have concrete confirmation that the 
individual they hire is authorized to work--or is not. What they will 
no longer have is an excuse to break the law.
    Our bill also doubles the fines that employers face when they 
employ undocumented immigrants, and it provides protections for 
whistleblowers who notify authorities when employers or workers are 
breaking the law. And our bill provides the Department of Labor with 
strong authorities to go after businesses and recruiters who break the 
rules.
    But, Mr. Chairman, our bill does not just authorize tough new 
enforcement procedures. It also provides funding to back it up. With 
the fees and fines that will be collected under this bill, we expect 
that well over $20 billion will fund enforcement activities at the 
Department of Homeland Security, the Department of Labor, and the 
Social Security Administration.
    Let me be clear about one misconception about this legislation. It 
is in no way an amnesty bill. We tried amnesty in this country in 1986, 
and it didn't work. It won't work in 2005, either. We can't reward 
lawbreakers, but we also have to deal with the reality that there are 
between 10 and 11 million undocumented people living and working in 
America today--10 to 11 million individuals who are unlikely to go home 
tomorrow.
    We couldn't round them all up and deport them even if we wanted to. 
It would be impossible to identify and apprehend everyone here 
illegally, and if we did, it would ground America's economy to a halt. 
Instead, we have a national interest in identifying these individuals, 
providing them with incentives to come out of the shadows go through 
security background checks, pay back taxes, pay penalties for breaking 
the law, learn to speak English, and regularize their status. All this 
can be accomplished in a manner that fosters the social, economic, and 
security interest of the United States.
    I recognize that several of my colleagues, present here today, have 
proposed legislation that address various aspects of our broken 
immigration system. Although we may approach this problem with 
competing philosophies and with different solutions, our recognition of 
the failures of the current system moves the debate forward, and I 
commend them on their proposals.
    We will never be able to please the political extremists on either 
side of this issue. However, in the interest of the country as a whole, 
we must pursue a carefully balanced compromise. I hope we can work 
together to put rhetoric aside and enact meaningful comprehensive 
immigration reform this year.
    Thank you, Mr. Chairman.

    The Chairman. Well, thank you very much, Senator McCain, 
for that compelling testimony. Likewise to you and Senator 
Kennedy for news that a hearing will be held in the Judiciary 
Committee. Obviously you will be heavily involved, and we will 
be watchful and sympathetic.
    I now call upon a distinguished witness today, our 
colleague, Senator John Cornyn.

     STATEMENT OF HON. JOHN CORNYN, U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Mr. Chairman, for the invitation 
to appear before you today. Senator Nelson, good to be here 
with you as well.
    My home State of Texas shares 1,285 miles, or 65 percent, 
of our Nation's common southern border with Mexico. This being 
the case, I have spent a lot of time trying to understand the 
issue of border security and immigration reform, as well as 
working with our counterparts in Mexico and exploring ways that 
our countries might work together in areas of mutual interest. 
Therefore the topic of this hearing is of great interest to me 
and I appreciate the fact that you are conducting these 
hearings.
    On a related note, I was pleased to join you as a cosponsor 
in S. 853, the North American Cooperation and Security Act, a 
bill that addresses the need for increased cooperation between 
the United States, Mexico, and Canada, as we have already 
heard. All countries must work together to provide increased 
cooperation on border security, to improve efforts to combat 
human trafficking and alien smuggling, and to intensify crime 
prevention activities.
    In March of this year, the United States, Mexico, and 
Canada entered into the Security and Prosperity Partnership 
Agreement that has already been alluded to as well, designed to 
develop a common security strategy and promote economic growth, 
including a commonsense immigration policy and greater 
cooperation on energy issues to reduce dependence on overseas 
energy.
    According to a most recent announcement from the 
partnership, border security remains a critical theme. I hope 
the partnership continues to identify additional security 
initiatives to protect our countries while facilitating 
legitimate trade and travel.
    In addition to cooperating on border security, less 
developed countries should further develop strategies that will 
bridge the development gap that motivates their citizens to 
migrate. For example, Mexico's leaders have made clear that it 
is in the best interest of their country to keep as many of 
their citizens home as they can. Foreign Minister Durez has 
said that: ``The Mexican Government has to be able to give 
Mexicans the opportunity to generate wealth that today they 
produce in other places.'' President Fox has stated: ``Every 
person has the right to find in his own country the economic, 
political, and social opportunities that are important to reach 
a full and dignified life.'' I could not agree more with these 
statements.
    Other countries' need for their young, energetic risk-
takers and hard-working individuals to ultimately return home, 
particularly with the capital, savings, and skills they 
acquired while working in the United States, ought to be one of 
our goals. These individuals must return to their countries of 
origin, build lives, buy homes, and start businesses. Then 
those small businessowners, those potential entrepreneurs, can 
help strengthen the middle class in those countries.
    Border cooperation should also be viewed within the 
context, as we have already heard, of the broader sense, the 
broader issue of immigration reform and the need for increased 
border security and immigration reform. Recognizing the 
interconnectedness of these issues, I have, in my capacity as 
the chairman of the Immigration, Border Security, and 
Citizenship Subcommittee of the Judiciary Committee, convened a 
series of hearings this year examining all of these topics. 
Frequently, we would have joint hearings with Senator Kyl's 
Subcommittee on Terrorism at the same time.
    These hearings have shown that our Nation's immigration and 
border security systems are broken and this leaves our borders 
unprotected, threatens our national security, and makes a 
mockery of the rule of law. These hearings have revealed that 
other countries are capable and willing to assist the United 
States, not just in working toward circular migration, but 
improving the immigration system as a whole.
    National security demands a comprehensive solution to our 
immigration system and I think that means both stronger 
enforcement and reasonable reform of our immigration laws. We 
must recognize that in the past we have simply not devoted the 
funds, resources, and manpower to enforce our immigration laws 
and protect our borders.
    That must change because history demonstrates that reform 
without enforcement is doomed to fail, and no discussion of 
comprehensive immigration reform is possible without a clear 
commitment to, and substantial and dramatic escalation of, our 
efforts to enforce the law.
    As we devote additional resources to enforcing immigration 
laws, we must also be wise in how we use those resources and we 
must evaluate what obligations should be borne by other 
countries that may benefit from these reciprocal agreements. 
Increased border cooperation should be a crucial part of any 
comprehensive solution to our immigration laws and no serious 
reform proposal will succeed without the commitment of Mexico 
and other countries.
    The reform bill that Senator Kyl and I will introduce 
shortly will deal with enforcement and reform of our 
immigration laws. It will also address the responsibility of 
other countries in reducing illegal immigration, alien 
smuggling, trafficking, and gang violence. I would note that 
from the description we have heard from Senator McCain and 
Senator Kennedy, we find more in common than differences, but 
there are differences that we will need to address.
    Of the more than 10 million people currently in our country 
without legal status and of the hundreds of thousands who enter 
every year undetected, some fraction of the population may 
harbor evil impulses toward our country. Yet, it is a practical 
impossibility to separate the well-meaning from the ill-
intentioned. We must focus our scarce resources on the highest 
risks.
    As an example, Border Patrol Commissioner Robert Bonner has 
previously testified before the Immigration Subcommittee that 
the Border Patrol is still dealing with a literal flood of 
people on a daily basis, most of whom are attempting to enter 
the country in order to work.
    Law enforcement and border security officials should focus 
their greatest energies on those who wish to do us harm, not 
those who wish only to help themselves and their families 
through work. We cannot have a population of more than 10 
million within which terrorists and their supporters could 
easily hide, and we cannot have that population afraid to 
cooperate with our law enforcement and antiterrorism efforts.
    With the cooperation of other countries, we can make the 
best use of our enforcement resources to deter, identify, and 
stop the aliens that wish to cause America harm or to take 
advantage of economic immigrants. More importantly, through the 
cooperation of other countries we can stop the cycle of work 
and stay, which really represents a permanent exodus of some of 
the most entrepreneurial, aggressive, hardworking citizens, and 
return to a system of circular migration that occurs through 
legal channels.
    Mr. Chairman, thank you very much.
    [The prepared statement of Senator Cornyn follows:]

    Prepared Statement of Hon. John Cornyn, U.S. Senator From Texas

    Mr Chairman, thank you for the invitation to testify at today's 
hearing. My home State of Texas shares 1,285 miles--or 65 percent of 
our country's common border--with Mexico. This being the case, I have 
spent a significant amount of time studying border security and 
immigation issues, as well as working with our counterparts in Mexico 
in exploring ways which our countries might work together in areas of 
mutual interest. Therefore, ``North American Cooperation on Border 
Security'' is a topic of great interest to me.
    On a related note, I was pleased to join you as a cosponsor of S. 
853, the North American Cooperation Security Act--a bill that addresses 
the need for increased cooperation between the United States, Mexico, 
and Canada with regard to security, trade, and law enforcement, areas 
that can always stand improvement.
    All countries must work together to provide increased cooperation 
on border security, to improve efforts to combat human trafficking and 
alien smuggling, and to intensify crime prevention activities.
    In March of this year, the United States, Mexico, and Canada 
entered the Security and Prosperity Partnership agreement designed to 
develop a common security strategy and promote economic growth, 
including a commonsense immigration policy and greater cooperation on 
energy issues to reduce dependence on overseas energy. And, according 
to the most recent announcement from this partnership, border security 
remains a central theme.
    I hope that this partnership continues to identify additional 
security initiatives that protect our countries while facilitating 
legitimate trade and travel.
    In addition to cooperating on border security, less developed 
countries should further develop strategies which will bridge the 
development gap that motivates their citizens to migrate. For instance, 
Mexico's leaders have made clear that it is in their best interests to 
keep their citizens in their country.
    Foreign Minister Derbez has said that ``[T]he Mexican government 
has to be able to give Mexicans . . . the opportunity to generate the 
wealth that today they produce in other places,'' and President Fox has 
stated: ``Every person has the right to find in his own country the 
economic, political, and social opportunities that allow him to reach a 
full and dignified life.''
    I could not agree more with these statements. Other countries need 
for their young, energetic risk-takers and hard-working individuals to 
ultimately return home, and particularly to return with the capital, 
savings, and skills they acquired while working in the United States. 
These individuals must return to their countries of origin, build 
lives, buy homes, and start businesses. Then those small business 
owners, those potential entrepreneurs, can help strengthen the middle 
class.
    Border cooperation should also be viewed within the context of the 
broader issue of immigration reform and the need for increased border 
security and immigration reform. Realizing the interconnectedness of 
these issues, I have convened a series of hearings this year examining 
all of these topics.
    These hearings have shown that our Nation's immigration and border 
security systems are badly broken, and this leaves our borders 
unprotected, threatens our national security, and makes a mockery of 
the rule of law.
    The hearings have also revealed that other countries are capable 
and willing to assist the United States, not just in working toward 
circular migration, but in improving the immigration system as a whole.
    National security demands a comprehensive solution to our 
immigration system--and that means both stronger enforcement and 
reasonable reform of our immigration laws. We must recognize that, in 
the past, we simply have not devoted the funds, resources, and manpower 
to enforce our immigration laws and protect our borders. That must 
change--because history demonstrates that reform without enforcement is 
doomed to fail. And no discussion of comprehensive immigration reform 
is possible without a clear commitment to, and a substantial and 
dramatic escalation of, our efforts to enforce the law.
    As we devote additional resources to enforcing the immigration 
laws, we must also be wise in how we use those resources and we must 
evaluate what obligations should be borne by other countries.
    Increased border cooperation should be a critical part of any 
comprehensive solution of our immigration laws, and no serious reform 
proposal will succeed without the commitment of Mexico and other 
countries. The reform bill that Senator Kyl and I will introduce 
shortly will deal with enforcement and reform of the immigration laws, 
it will also address the responsibility other countries have in 
reducing illegal immigration, alien smuggling and trafficking, and gang 
violence.
    Of the more than 10 million people currently in our country without 
legal status, and of the hundreds of thousands who enter every year 
undetected, some fraction of the population may harbor evil impulses 
toward our country. Yet it is a practical impossibility to separate the 
well-meaning from the ill-intentioned. We must focus our scarce 
resources on the highest risks.
    As an example, Border Patrol Commissioner Robert Bonner has 
previously testified before the Immigration Subcommittee that ``. . . 
the Border Patrol is still dealing with a literal flood of people on a 
daily basis most of whom are attempting to enter this country in order 
to work.''
    Law enforcement and border security officials should focus their 
greatest energies on those who wish to do us harm--not those who wish 
only to help themselves and their families through work. We cannot have 
a population of more than 10 million within which terrorists and their 
supporters can easily hide. And we cannot have that population afraid 
to cooperate with our law enforcement and antiterrorism efforts.
    With the cooperation of other countries, we can make the best use 
of our enforcement resources to deter, identify, and stop the aliens 
that wish to cause harm to America or to take advantage of economic 
migrants.
    More importantly, through the cooperation of other countries, we 
can stop the cycle of ``work and stay'' and return to a system of 
circular migration that occurs through legal channels.
    Thank you, Mr. Chairman.

    The Chairman. Well, thank you very much, Senator Cornyn, 
for your leadership. Your subcommittee hearings have been very, 
very important on these issues, and I am pleased to note that 
you are working with your other colleagues on Judiciary as you 
fashion legislation. We look forward to working with you.
    It is a pleasure to call on Representative Harris. We thank 
you for coming today, and for your introduction of our bill in 
the House.

              STATEMENT OF HON. KATHERINE HARRIS,
                U.S. REPRESENTATIVE FROM FLORIDA

    Ms. Harris. Thank you. Thank you, Mr. Chairman. Esteemed 
members of the committee, thanks for inviting me, particularly 
for joining such a distinguished panel this morning, to discuss 
the critical need for border security.
    As you are well aware, the security of our borders is one 
of the most pressing homeland security concerns. Whether we are 
speaking of our northern and southern land borders, our coastal 
borders, or even the interior borders at air points of entry, 
much remains to be done even today to ensure that those who 
would do us harm do not exploit the vulnerable points to 
threaten our Nation or the American people.
    We must ensure that every threat to our Nation, whether it 
is terrorists, a shipment of narcotics, or human trafficking 
networks that smuggle criminals and illegal immigrants, is 
identified and stopped before crossing the borders. Mr. 
Chairman, last month we even noted, as the report illuminated, 
in Polacca, FL, over 100 women and children were at a labor 
camp as illegal immigrants.
    At the same time, we must balance this demand for security 
against the need for the free flow of commerce and trade. We 
want and need secure borders, but not at the heavy cost of 
hindering goods and services and legal immigration for those 
who contribute to the strength of our Nation's economy and to 
the richness of our culture.
    The challenge of that balancing act has been a priority for 
me throughout my career in public service. With nearly 1,200 
miles of coastal area in Florida, 14 deep-water seaports, 12 
international airports, 17 free trade zones, Florida is a 
critical link in the global supply chain that brings goods to, 
and from, the United States. As a member of the Florida Senate, 
the Florida Cabinet, as Secretary of State, and now as a Member 
of the U.S. Representatives on committees such as Homeland 
Security, Financial Services, and International Relations, I 
have been deeply involved with the efforts to ensure that my 
State maintains this vital flow of trade, commerce, and 
migration while seeking new solutions to border security.
    One lesson I have learned from the experience is that a 
comprehensive border security solution focusing on both Mexican 
and Canadian borders, as well as our sea borders, is an 
absolutely essential component. Recently I introduced 
legislation in the House that could provide the first stage of 
that comprehensive solution, the North American Cooperative 
Security Act, or NACSA, H.R. 2672. I am pleased to report that 
I was joined by several Members of my House colleagues in 
introducing this legislation, which closely mirrors your 
legislation, Mr. Chairman, in the Senate.
    NACSA seeks to enhance the common security and safety of 
the United States, Canada, and Mexico by providing a shared 
framework for the management, communication, and coordination 
on border issues between all three North American governments. 
At the same time, NACSA would help facilitate trade and 
commerce between North American countries and help expedite 
trade in low-risk goods.
    How would this bill strengthen the security of our borders 
while enhancing commerce between North American trading 
partners? Through five basic avenues. First, NACSA would 
provide a systematic framework for information-sharing on 
border issues, including sharing up-to-date information on 
criminal gangs and drug smugglers.
    Second, NACSA would ensure aggressive and consistent 
enforcement of the laws at borders, coordinating law 
enforcement efforts of the three governments to target tariffs, 
organized crime, and the illicit trafficking of weapons, 
nuclear materials, drugs, and people. Furthermore, it would 
enhance government's ability to deport those who are in the 
country illegally, especially those with criminal backgrounds.
    Third, NACSA would leverage the power of technology to 
support border security efforts, including creating an 
electronic database to track criminal gang activity and 
fostering the efforts to develop biometric standards for 
documents. With biometric technology, we can be certain that 
people who are who they claim to be and we can reduce the 
incidence of fraudulent documentation facilitating illegal 
entries into our country. The goal is to ensure that high-risk 
individuals who attempt to enter North America are identified 
and stopped at the border.
    Fourth, NACSA would strengthen trade relationships by 
reducing wait times for freight and people, investing in 
improved border infrastructure, determining the feasibility of 
a common external tariff for all North America, and 
establishing a cooperative energy policy to ensure reliable 
energy supplies for the entire continent.
    Finally, NACSA would fortify our security relationship with 
our critical ally to the south by including Mexico in a number 
of security programs currently in place throughout the rest of 
North America, such as the Joint Inter-Agency Task Force and 
North American Aerospace Defense Command. In addition, it would 
strengthen communication and intelligence between the 
governments and law enforcement in the United States and 
Mexico, enhancing cooperation to target the criminal networks 
and terrorists who would exploit vulnerable points in our 
border for their own dangerous ends.
    With NACSA, we will start by ensuring that our critical 
land borders with Canada and Mexico are secured and that free 
flow of trade, commerce, and people that supports the North 
American economy is allowed to continue and thrive.
    I look forward to working with you to ensure that we meet 
our goal of balancing our needs for security with the support 
of commerce. Thank you, Mr. Chairman and distinguished members.
    [The prepared statement of Representative Harris follows:]

 Prepared Statement of Hon. Katherine Harris, U.S. Representative From 
                                Florida

    Mr. Chairman, Ranking Member Biden, and esteemed members of the 
committee. Thank you for inviting me to testify before you today about 
the critical need for border security.
    As you are well aware, the security of our borders is one of our 
most pressing homeland security concerns. Whether we are speaking of 
the our northern and southern land borders, our coastal borders, or the 
``interior borders'' at air points of entry, much remains to be done, 
even today, to ensure that those who would do us harm do not exploit 
these vulnerable points to threaten our Nation or the American people.
    We must ensure that every threat to our Nation--whether it is a 
terrorist, a shipment of narcotics, or a human trafficking network 
smuggling criminals or illegal immigrants--is identified and stopped 
before crossing those borders.
    At the same time, we must balance this demand for security against 
the need for a free flow of commerce and trade. We want and need secure 
borders, but not at the heavy cost of hindering goods, services, and 
legal immigrants who contribute to the strength of our Nation's economy 
and to the richness of our culture.
    The challenge of that balancing act has been a priority for me 
throughout my career in public service. With nearly 1,800 miles of 
coastline and 14 deep water seaports, Florida is a critical link in the 
global supply chain that brings goods to and from the United States.
    As a member of the Florida State Senate; as Secretary of State; and 
now as a member of the U.S. House of Representatives' Committees on 
Homeland Security, Financial Services, and International Relations, I 
have been deeply involved with efforts to ensure that my State 
maintains this vital flow of trade, commerce, and migration while 
seeking new solutions to ensure border security.
    One lesson I have learned from this experience is that a 
comprehensive border security solution--focusing on both the Mexican 
and Canadian borders as well as our sea borders--is absolutely 
essential.
    Recently, I introduced legislation in the House that could provide 
the first stage of that comprehensive solution--the North American 
Cooperative Security Act, or NACSA (H.R. 2672).
    I am pleased to report that I was joined by several of my House 
colleagues in introducing this legislation, which closely mirrors 
Chairman Lugar's legislation in the Senate (S. 853).
    NACSA seeks to enhance the common security and safety of the United 
States, Canada, and Mexico, by providing a shared framework for 
management, communication, and coordination on border issues between 
all three North American governments.
    At the same time, NACSA would help to facilitate trade and commerce 
between the North American countries, and help to expedite trade in 
``low-risk'' goods.
    How would this bill strengthen the security of our borders while 
enhancing commerce between North American trading partners?
    Through five basic avenues:
    First, NACSA would provide a systematic framework for information-
sharing on border security issues, including sharing up-to-date 
information on criminal gangs and drug smugglers.
    Second, NACSA would ensure aggressive and consistent enforcement of 
the law at the borders, coordinating law enforcement efforts of the 
three governments to target terrorists, organized crime, and the 
illicit trafficking of weapons, nuclear materials, drugs, and people.
    Furthermore, it would enhance the government's ability to deport 
those who are in the country illegally--especially those with criminal 
backgrounds.
    Third, NACSA would leverage the power of technology to support 
border security efforts--including creating an electronic database to 
track criminal gang activity and fostering the effort to develop 
biometric standards for documents.
    With biometric technology, we can be certain that people are who 
they claim to be, and we can reduce the incidence of fraudulent 
documentation facilitating illegal entries into our country. The goal 
is to ensure that high-risk individuals who attempt to enter North 
America are identified and stopped at the border.
    Fourth, NACSA would strengthen trade relationships by reducing wait 
times for freight and people; investing in improved border 
infrastructure; determining the feasibility of a common external tariff 
for all of North America; and establishing a cooperative energy policy 
to ensure reliable energy supplies for the entire continent.
    Finally, NACSA would fortify our security relationship with our 
critical ally to the south by including Mexico in a number of security 
programs currently in place throughout the rest of the North America, 
such as the Joint Interagency Task Force and North American Aerospace 
Defense Command.
    In addition, it would strengthen communication and intelligence 
between the governments and law enforcement agencies in the United 
States and Mexico, enhancing cooperation to target the criminal 
networks and terrorists who would exploit vulnerable points in our 
border for their own dangerous ends.
    With NACSA, we will start by ensuring that our critical land 
borders with Canada and Mexico are secured, and that the flow of trade, 
commerce, and people that supports the North American economy is 
allowed to continue and thrive. I look forward to working with you to 
ensure that we meet our goal of balancing our needs for security with 
support for commerce.
    Thank you very much.

    The Chairman. Thank you very much for that testimony and 
for your work.
    Ms. Harris. Thank you, sir.
    The Chairman. We look forward to working with your 
collegues in the House as this proceeds.
    Ms. Harris. Thank you, Mr. Chairman.
    The Chairman. Thank you for coming today.
    It is a privilege now for the chair to call our second 
panel to the witness table. This will include: The Honorable 
Perrin Beatty, president and chief executive officer of the 
Canadian Manufacturers and Exporters and a former Foreign 
Minister of Canada; the Honorable Jorge Castaneda, Global 
Distinguished Professor of Politics and Latin American and 
Caribbean Studies, New York University, and the former Foreign 
Minister of Mexico.
    Gentlemen, it is a privilege to have both of you here today 
to work with us on these very important subjects that are a 
part of our discussion. We thank you for coming. I will ask you 
to testify in the order that I introduced you. Your statements 
will be made part of the official record, and you need not ask 
for that to occur. It will. Please proceed, either with the 
statement or with a summary of it, and then we will have 
questions by our members of both of you.
    Mr. Beatty.

  STATEMENT OF HON. PERRIN BEATTY, P.C., PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, CANADIAN MANUFACTURERS AND EXPORTERS, AND 
            FORMER FOREIGN MINISTER, OTTAWA, CANADA

    Mr. Beatty. Thank you. Thank you very much, Chairman Lugar 
and Senators. Thank you very much for your hospitality today.
    I am the President and CEO of Canadian Manufacturers and 
Exporters, whose members produce about 75 percent of Canada's 
manufactured goods and about 90 percent of our merchandise 
exports. But my personal interest in these issues predates my 
present responsibilities. Between 1979 and 2003 I served in a 
number of Cabinet posts in the Canadian Government, including 
as Foreign Minister, as Minister of National Defense, as 
Solicitor General of Canada, and as Minister of National 
Revenue, responsible for Canada Customs.
    Senators, this hearing is extremely timely. Last week's 
bombings in London underscored the lessons of New York and 
Washington in 2001. Despite the human suffering and physical 
damage caused by these cruel attacks, the real targets were not 
the individuals or the infrastructure, but the values they 
represented, of freedom, of diversity, of equality, of 
tolerance. These values transcend national boundaries. When 
they are attacked, every society that holds them dear is also 
under assault.
    We can debate about how best to counter the threat, but we 
will succeed together or we will fail together. Just as our two 
countries feel solidarity with the British people today, 
Canadians instinctively felt your hurt when America was 
attacked almost 4 years ago. Hundreds of flights were diverted 
to Canada, where Americans were comforted and consoled and 
welcomed into Canadian homes. In taking those flights, Canada 
understood that one or more of them could also have been flying 
bombs.
    Three days later, I was there on Parliament Hill as over 
100,000 Canadians converged for a memorial service. The support 
was both massive and spontaneous; 100,000 Canadians expressing 
their personal sorrow and their commitment to their American 
neighbors.
    Canada was among the first to put ground troops into 
Afghanistan, hunting al-Qaeda and Taliban alongside United 
States forces. We have been a lead nation in the International 
Security Assistance Force and we will be there for the 
foreseeable future with the Provincial Reconstruction Team and 
other forces to deploy in Kandahar in August to replace U.S. 
troops.
    Osama bin Laden has publicly identified Canada as a target 
for his followers to attack. Indeed, Mr. Chairman, in some of 
the lists Canada is the only country which has not been 
attacked as yet.
    The terrorist threat is not just your problem. It is very 
much ours, too. And it is in Canada's interests to do all that 
we can to ensure that our country is neither a target of 
terrorism nor a staging ground for attacks on others.
    Now, Canada's business community understands that it is not 
a choice between our physical and our economic security. If 
either is undermined, the terrorists win. Like our physical 
security, the economic security of our two countries is 
indivisible. In 2004 Canada-United States trade approached $680 
billion, with over 1.8 billion dollars' worth of goods and 
services crossing the border every day. That is a million 
dollars of business a minute, 24 hours a day, 7 days a week, 
365 days a year.
    Two hundred million people cross the border each year and 
Canada takes 23.5 percent of United States exports. In fact, in 
2004 Canada was the largest export market for 37 U.S. States, 
supporting over 5 million U.S. jobs, 112,000 in Indiana alone.
    Now, not only is Canada a larger market for United States 
goods than all 25 countries of the European Union combined, but 
we also trade as much with one American company, Home Depot, as 
we do with France. I might observe parenthetically, Mr. 
Chairman, that we have also sent Washington a pretty good 
baseball team.
    Now, our security relationship is equally extensive. We are 
longstanding partners in both the Permanent Joint Board of 
Defense and NORAD. Indeed, a Canadian was in charge of NORAD on
9/11. We have 23 integrated border enforcement teams, the 
Cross-Border Crime Forum, and the Shared Border Accord Process. 
Since 9/11 we have signed two new umbrella initiatives, the 
2001 Canada-U.S. Smart Border Declaration and the Trilateral 
Security and Prosperity Partnership announced last March 23.
    We now have joint teams in Halifax, Montreal, Vancouver, 
Seattle, Tacoma, Newark to target in-transit containers before 
they reach our shores, preparing the groundwork for cooperation 
on the container security initiative. We have implemented the 
Free and Secure Trade Program for preapproved importers, 
carriers, and drivers to expedite low-risk shipments. FAST 
operates at 19 high-volume crossings.
    We share six joint facilities straddling the border. To 
improve their security and efficiency, we are negotiating to 
place both countries' customs and immigration teams on the same 
side at various border crossings, starting with the Peace 
Bridge and the Thousand Islands Bridge.
    Canada and the United States share advanced passenger 
information and passenger-name record information on high-risk 
travelers. We cooperate on visa policy and have common policies 
for 175 countries, differing on only 18 others.
    Well, Senators, our borders are both more secure and better 
managed than they were just a few years ago. However, serious 
issues remain and let me briefly highlight three.
    Since 9/11 we have seen a rapid increase in border 
protection regulations and programs. We have at least 44 
agencies with jurisdiction over the shared border, adding 
complexity to a process that was intended to be simplified and 
streamlined. While each initiative and program is well-founded, 
the layering of security, compliance and delay costs adds 
billions of dollars to overheads at a time when North American 
manufacturers face dramatically growing offshore competition.
    Since the SMART Border Declaration of 2001, estimated 
processing times for shipments into the United States tripled 
from 45 seconds to over 2 minutes and 15 seconds per truck by 
the end of 2004. Border delays alone cost the Canadian and 
United States economies an estimated 12.5 billion Canadian 
dollars annually. Since many North American goods cross the 
Canada-United States border several times before reaching 
consumers, the real cost in lost jobs and income is 
significantly higher.
    Consider the automotive industry. While an offshore 
shipment of 4,000 vehicles requires 24 hours advance notice and 
a single security check before rolling off a ship and into 
North American dealerships, U.S.- and Canadian-produced 
vehicles cross the border an estimated 7 times during 
production, with finished vehicles crossing 18 at a time. The 
automotive industry in North America is so integrated that 
producing 4,000 vehicles in North America may include over 
1,500 customs transactions. These additional reporting, 
compliance, and delay costs translate into an estimated 800 
dollars Canadian per vehicle.
    One prominent North American company recently celebrated 
its one millionth FAST shipment without a single actionable 
finding. However, the same company's inspections entering the 
United States in the early part of 2005 have increased 50 
percent over the same period in 2004.
    A second concern is the pressing need for new 
infrastructure. At the world's most important border point, we 
rely on infrastructure built by our grandparents. The 
Ambassador Bridge was completed in 1929 and the Detroit-Windsor 
Tunnel the following year, when today's trade levels were 
unimaginable and we had no fear of terrorism. Even before 9/11, 
this vital crossing was choking on its own success, causing 
delays, congestion, and pollution on both sides.
    Since then, however, it has become a matter of national 
security for both of our countries. If these critical border 
crossings were damaged, with the possible added impact of 
closing access to three of the Great Lakes from the Saint 
Lawrence Seaway, the economic cost would be incalculable. Yet, 
Mr. Chairman, according to current schedules, if all goes on 
schedule with no delays, no new crossing is planned until 2013.
    Do we believe that the terrorists are unaware of this 
vulnerability? What other two nations would leave their 
economies hostage in this way? Governments must act now, even 
if special legislation is required.
    My third concern is the possible impact of new secure ID 
requirements. The border is about people and communities who 
rely on each other, whether it is Canadian snowbirds seeking 
Florida sunshine, Minnesotans attending hockey tournaments in 
Canada with their kids, or nurses commuting to care for our 
loved ones.
    Like FAST, the Nexus highway program expedites preapproved 
low-risk travelers. Some suggest using Nexus to implement the 
Western Hemisphere Travel Initiative, but Nexus, while 
important by itself, will not solve the documentary 
requirements. The background checks for a Nexus card make it 
even harder to obtain than a passport. Whatever is designated 
as an alternative to passports must not only be secure, but 
also inexpensive and convenient to obtain and to use. Otherwise 
the WHTI may damage border communities, trade, and travel, 
creating a new barrier between people.
    Senators, we have come a long way since 9/11 and our 
governments plan to move further. But last week's bombings add 
an extra urgency to our efforts. The terrorists win if they 
divide us or if they weaken us. Our goal must be to strengthen 
both our defenses and our economies, and to ensure that our 
common border remains a meeting place for our two peoples and 
never becomes a wall to keep us apart.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Beatty follows:]

 Prepared Statement of Hon. Perrin Beatty, President and CEO, Canadian 
   Manufacturers & Exporters, Former Foreign Minister, Ottawa, Canada

    Thank you for the invitation to meet with you. I am the President 
and CEO of Canadian Manufacturers & Exporters, whose members produce 
about 75 percent of Canada's manufactured goods and about 90 percent of 
its merchandise exports.
    My personal interest in these issues predates my present 
responsibilities. Between 1979 and 2003, I served in a number of 
Cabinet posts, including as Foreign Minister, as Minister of National 
Defence, as the Solicitor General of Canada, and as Minister of 
National Revenue, responsible for Canada Customs.
    This hearing is extremely timely. Last week's bombings in London 
underscored the lessons of New York and Washington in 2001: Despite the 
human suffering and physical damage caused by these cruel attacks, the 
real targets were not the individuals or the infrastructure, but the 
values they represented--of freedom, of diversity, of equality, of 
tolerance. These values transcend national boundaries. When they are 
attacked, every society that holds them dear is also under assault. We 
can debate about how best to counter the threat, but we will succeed 
together or we will fail together.
    Just as our two countries feel solidarity with the British people 
today, Canadians instinctively felt your hurt when America was attacked 
almost 4 years ago. Hundreds of flights were diverted to Canada, where 
Americans were comforted and consoled, and welcomed into Canadian 
homes. In taking those flights Canada understood that one or more of 
them could also have been flying bombs.
    Three days later, I was there as over 100,000 Canadians converged 
on Parliament Hill for a memorial service. The support was both massive 
and spontaneous--100,000 Canadians expressing their personal sorrow and 
their commitment to their American neighbours.
    Canada was among the first to put ground troops into Afghanistan, 
hunting al-Qaeda and Taliban alongside United States forces. We have 
been a lead nation in the International Security Assistance Force and 
we will be there for the foreseeable future with a Provincial 
Reconstruction Team and other forces to deploy in Kandahar in August.
    Osama bin Laden has publicly identified Canada as a target for his 
followers to attack. The terrorist threat is not just your problem--it 
is very much ours, too, and it is in Canada's interests to do all we 
can to ensure our country is neither a target of terrorism nor a 
staging ground for attacks against others.
    Canada's business community understands that it is not a choice 
between our physical and our economic security; if either is 
undermined, the terrorists win.
    Like our physical security, the economic security of our two 
countries is indivisible. In 2004, Canada-United States trade 
approached $680 billion, with over 1.8 billion dollars' worth of goods 
and services crossing the border every day--that's a million dollars of 
business a minute.
    Two hundred million people cross the border each year and Canada 
takes 23.5 percent of U.S. exports. In fact, in 2004 Canada was the 
largest export market for 37 U.S. States, supporting over 5 million 
U.S. jobs. Not only is Canada a larger market for U.S. goods than all 
25 countries of the European Union combined, but we also trade as much 
with one American company, Home Depot, as we do with France. (We've 
also sent Washington a pretty good baseball team.)
    Our security relationship is equally extensive:

  <bullet> Canada and the United States are longstanding partners in 
        both the Permanent Joint Board on Defence and NORAD. Indeed, a 
        Canadian was in charge at NORAD on 9/11.
  <bullet> Each year, top law enforcement and border agencies hold the 
        Cross-Border Crime Forum, and key border agencies led by CBP 
        and the Canada Border Services Agency meet regularly to share 
        information and coordinate border management.
  <bullet> Since 9/11, we have signed two new umbrella initiatives--the 
        2001 Canada-U.S. Smart Border Declaration and the trilateral 
        Security and Prosperity Partnership announced last March 23.
  <bullet> Our countries maintain joint teams to target in-transit 
        containers before they reach our shores. You have CBP 
        inspectors stationed in Halifax, Montreal, and Vancouver, while 
        Canada has inspectors in Seattle-Tacoma and Newark, preparing 
        the groundwork for cooperation on the Container Security 
        Initiative.
  <bullet> We have implemented the Free and Secure Trade program for 
        preapproved importers, carriers, and drivers to expedite low-
        risk shipments. FAST operates at 19 of high-volume crossings.
  <bullet> There are 23 integrated border enforcement teams of police, 
        customs and immigration agencies, and the U.S. Coast Guard to 
        monitor our border between crossings.
  <bullet> We share six joint facilities straddling the border and are 
        negotiating to place both countries' customs and immigration 
        teams on the same side at various border crossings, starting 
        with the Peace Bridge and the Thousand Islands Bridge.
  <bullet> Canada and the United States share Advance Passenger 
        Information and passenger name record information on high-risk 
        travelers. We also cooperate on visa policy, and have common 
        policies for 175 countries, differing on only 18 others.

    Our borders are both more secure and better managed than they were 
just a few years ago. However, serious issues remain. Let me briefly 
highlight three.
    Since 9/11 we have seen a rapid increase in border protection 
regulations and programs. We have at least 44 agencies with 
jurisdiction over the border, adding complexity to a process that was 
intended to be simplified and streamlined.
    While each initiative and program is well founded, the layering of 
security, compliance, and delay costs adds billions of dollars of 
overheads at a time when North American manufacturers face dramatically 
growing offshore competition.
    Since the Smart Border Declaration of 2001, estimated processing 
times for shipments into the United States tripled from 45 seconds to 
over 2 minutes and 15 seconds per truck by the end of 2004. Border 
delays alone cost the Canadian and U.S. economies an estimated C$12.5 
billion annually. Since many North American goods cross the Canada-
United States border several times before reaching consumers, the real 
cost in lost jobs and income is significantly higher.
    Consider the automotive industry. While an offshore shipment of 
4,000 vehicles requires 24-hour advance notice and a single security 
check before rolling off a ship and into North American dealerships, 
U.S.- and Canadian-produced vehicles cross the border an estimated 
seven times during production, with finished vehicles crossing 18 at a 
time. The automotive industry in North America is so integrated that 
producing 4,000 vehicles in North America may include over 1,500 
customs transactions. These additional reporting, compliance, and delay 
costs translate into an estimated C$800 per vehicle.
    One prominent North American company recently celebrated its one-
millionth FAST shipment without a single actionable finding. However, 
this same company's inspections entering the United States in the early 
part of 2005 have increased 50 percent over the same period in 2004.
    A second concern is the pressing need for new infrastructure. At 
the world's most important border point, we rely on infrastructure 
built by our grandparents. The Ambassador Bridge was completed in 1929, 
and the Detroit-Windsor Tunnel the following year, when today's trade 
levels were unimaginable and we had no fear of terrorism.
    Even before 9/11, this vital crossing was choking on its own 
success, causing delays, congestion, and pollution on both sides. Since 
then, however, it has become a matter of national security. If these 
critical border crossings were damaged, with the possible added impact 
of closing access from three of the Great Lakes to the St. Lawrence 
Seaway, the economic cost would be incalculable. And yet, no new 
crossing is planned until 2013.
    Do we believe the terrorists are unaware of this vulnerability? 
What other two nations would leave their economies hostage in this way? 
Governments must act now, even if special legislation is required.
    My third concern is the possible impact of new secure ID 
requirements. The border is about people and communities who rely on 
each other, whether it's Canadian snowbirds seeking Florida sunshine, 
parents attending hockey tournaments with their kids, or nurses 
commuting to care for our loved ones.
    Like FAST, the NEXUS Highway program expedites preapproved, low-
risk travelers. Some suggest using NEXUS to implement the Western 
Hemisphere Travel Initiative, but NEXUS, while important, won't solve 
the documentary requirements. The background checks for a NEXUS card 
make it even harder to obtain than a passport. Whatever is designated 
as an alternative to passports, it must be not only secure, but also 
inexpensive and convenient to obtain and use. Otherwise, the WHTI may 
damage border communities, trade, and travel, creating a new barrier 
between people.
    We have come a long way since 9/11, and our governments plan to 
move further. But last week's bombings add an extra urgency to our 
efforts. The terrorists win if they can divide us or weaken us. Our 
goal must be to strengthen both our defences and our economies, and to 
ensure that our common border remains a meeting place for our two 
peoples, and never becomes a wall to keep us apart.

    The Chairman. Thank you very much, Mr. Beatty, for that 
very informed testimony, and the details that are so important.
    Mr. Beatty. Thank you.
    The Chairman. It is really a pleasure to have the former 
Foreign Minister of Mexico, Mr. Castaneda. I appreciated 
visiting with you, sir, and we are delighted that you are here 
with us on the committee today. Please proceed with your 
testimony.

    STATEMENT OF HON. JORGE CASTANEDA, GLOBAL DISTINGUISHED 
PROFESSOR OF POLITICS AND LATIN AMERICAN AND CARIBBEAN STUDIES, 
NEW YORK UNIVERSITY, AND FORMER FOREIGN MINISTER, MEXICO CITY, 
                             MEXICO

    Mr. Castaneda. Thank you, Senator Lugar, for the 
invitation. Thank you, Senator Nelson, Senator Dodd, for this 
opportunity. I have delivered, in my written statement, some 
general views on the Mexican stance on immigration and I would 
like to just emphasize a few specific aspects in my spoken 
comments.
    Immigration and security issues in the United States-
Mexican relationship, Mr. Chairman, are as lastingly and 
intensely interconnected today as Mexico and the United States 
are. I am convinced that there cannot be a United States 
immigration reform and/or an agreement with Mexico on this 
issue if it does not address the three basic sides of the 
immigration equation: One, people who are already here; two, 
people who will keep coming; and three, perhaps most 
importantly, the development of the sending regions in Mexico. 
These three aspects must be addressed together and doing so 
will imply significant changes in U.S. attitudes toward 
immigration.
    I am equally convinced that there can be no United States 
immigration reform and agreement with Mexico and cooperation 
with Mexico without addressing fundamental United States 
security issues of the two countries and also with Canada. The 
Task Force on North America, Building a New North American 
Community, that was chaired recently by William Weld, Pedro 
Aspe, and John Manley of Canada, is a good starting point for 
this, as, of course, is the NACSA bill that you have introduced 
and that Representative Harris has introduced in the House.
    I am convinced also that there can be no security 
cooperation beyond what already exists without some form of 
immigration package. We cannot continue in Mexico to live with 
what Senator McCain described recently: One Mexican dying every 
day on the Arizona-Sonora border during the entire year. This 
is something that cannot continue and no Mexican Government can 
cooperate as fully with the United States and Canada on 
security issues if these issues of immigration are not 
addressed, if the situation of now nearly 6 million Mexicans in 
the United States without papers is not addressed, and if the 
situation of those Mexicans who will continue to come to the 
United States for the next 10 or 15 years approximately are not 
addressed.
    Finally, I am convinced that there can be no attempt to 
enhance security and achieve integral immigration reform in the 
United States without Mexican cooperation and involvement. I 
welcome Senator Kennedy's and McCain's comments on these issues 
as well as the way they have addressed this matter in their 
bill, in their reform of immigration. Without Mexican 
cooperation on security issues, on temporary workers, and on 
earned legalization or regularization, I do not think it 
possible for this to go forward in a way that would really 
address the interests of Mexico and of the United States.
    Unilateral acts will not work. I think if there was 
something that did not work in the 1986 IRCA immigration 
reform, it was precisely that, that it was a unilateral 
decision made by the United States in full exercise of its 
sovereignty. That is not the issue. The issue is that without 
cooperation the problems will continue to emerge.
    But I am also convinced that there can be no Mexican 
cooperation that is both effective and credible without 
significant changes in Mexican attitudes toward immigration, 
moving toward what we call shared responsibility. That includes 
issues like so-called ``OTMs,'' other than Mexicans, that 
includes the security on the border, and that includes the 
situation of smugglers and gangs on Mexico's southern border. I 
welcome the aspects of your bill, Senator Lugar, that address 
the question of the border between Mexico and Central American 
countries and how to enhance security and law enforcement on 
the southern Mexican border and borders between the Central 
American countries themselves.
    What does all of this mean? In particular, what does 
Mexican cooperation on OTMs, security, and finding ways to 
share responsibility for regulating remanent flows once an 
agreement has been reached? It means implementing noncoercitive 
but tough policies, market-based and policy-based, of 
incentives and elements of dissuasion, to ensure that in the 
framework of an overall agreement Mexico significantly 
contributes to reducing unauthorized future flows from the 
United States, from Mexico to the United States, and other than 
Mexicans through Mexico.
    Nothing that is coercive will work, but nothing that is 
insignificant will work either. We have to find the right 
package, the right mix of incentives and dissuasive factors, 
based on market mechanisms or based on policies in the sending 
communities in Mexico whereby we will find a way to dissuade 
and discourage people from leaving over and beyond the 
increases in temporary worker visas and in permanent visas and 
in earned legalization in the United States.
    If any agreement or any reform simply postpones these 
issues, it will not work. I think in Mexico today we are 
finally aware and conscious of the need to move in this 
direction.
    This cannot be done, though, outside the framework of an 
overall agreement. In the same way that the United States could 
probably not address immigration issues with Mexico without 
addressing the security aspects--the construction of a possible 
security perimeter by the year 2010, as the task force I 
already mentioned has requested--without addressing many of the 
points that are in your bill, Senator, without many of the 
points that have been mentioned in the March 22 Waco statement 
by the three leaders of our three countries. Without going 
into--if we do not also look at Mexican cooperation on these 
issues, it will not be possible to move forward.
    But no Mexican Government, no Mexican Government, can move 
in this direction of shared responsibility outside of an 
immigration reform and/or agreement that significantly 
addresses the main issues, starting with the ones Senator 
McCain touched upon in his eloquent testimony regarding the 
deaths in the Arizona desert.
    United States-Mexican cooperation then can work, but it has 
to move in this package way. This then would be what we could 
call today the new whole enchilada: Development, future flows 
and existing stocks, security and immigration, United States-
Mexican cooperation and shared responsibility, Mexican 
involvement and regulation of future unauthorized immigration 
and involvement, and United States involvement in Mexican 
development.
    If we put all of these issues together in a package, which 
I am sure we can find a proper translation for in proper 
English for ``the whole enchilada,'' I think we can come up 
with something that will work. The Kennedy-McCain and your 
initiative, Senator Lugar, address many of these issues. Mr. 
Fox's, President Fox's, administration has also addressed many 
of these, and in talks with the Bush administration a great 
deal of progress has been achieved over the past 5 years now.
    Mexico has now gone 10 years without an economic collapse. 
This is the longest period since the 1960s. In these 10 years 
immigration has increased dramatically, both documented and 
unauthorized. More people, from more places, to more 
destinations and more occupations. Before 2015 there is no 
reason to believe that there will be a significant drop in 
global numbers, in total numbers of flows, without a proactive 
policy to deter, to regulate, legalize, and humanize it.
    The security threat, as underlined tragically and 
inadmissibly last week by the events in London, to our three 
countries has also increased significantly in the last few 
years and will continue to increase. That is the challenge we 
face, Senator.
    Thank you.
    [The prepared statement of Mr. Castaneda follows:]

   Prepared Statement of Hon. Jorge Castaneda, Global Distinguished 
  Professor of Politics and Latin American and Caribbean Studies, and 
              Former Foreign Minister, Mexico City, Mexico

    In my written statement to the committee I would like to reiterate 
many of the points made by Ambassador Andres Rozental in his written 
statement to the U.S Senate Committee on the Judiciary, Subcommittee 
Border Security and Citizenship on June 30, 2005. The points made by 
Ambassador Andres Rozental in that statement were faithful reflections 
of many of the conclusions reached by the task force named 2001 
Carnegie Endowment-ITAM Task Force on Immigration chaired by Thomas 
McLarty, which were subsequently translated into policy during my term 
as Mexico's Foreign Minister. I have little to add to what was already 
eloquently expressed by that task force, by the Mexican Government 
between 2000 and 2003, and by Ambassador Andres Rozental.
    Since the beginning of the Fox administration in 2000, Mexico made 
a major change to its view on the immigration relationship with the 
United States. After many years of considering the flow of Mexicans 
into the United States to work and live as an essentially American 
issue, the Fox government decided to actively propose and work for a 
bilateral immigration agreement with its northern neighbor. Under this 
new approach, the Mexican Government adopted a five-point strategy in 
its discussions with the new Bush administration. Although 9/11 
abruptly put these discussions on hold, it is worthwhile summarizing 
and recalling what the Mexican position was at the time because it 
hasn't changed in substance since then.
    First, Mexico believes that any new immigration reform that doesn't 
take into account the millions of Mexicans that are already living and 
working in the United States without documents won't work. The 
existence of a permanent underclass of foreign individuals who are 
outside the law has been one of the most serious issues in the 
immigration debate. These people are basically residents of the United 
States, don't have any of the rights or obligations that green-card 
holders have. They live as part of U.S. society, but are excluded from 
most of its benefits. Equally, they can't be held accountable for many 
of the duties that they would normally owe as full fledged legal 
residents, in spite of the fact that they pay taxes deducted by their 
employers and are generally law-abiding members of the community. 
However, they live in permanent fear of being discovered and deported 
and this leads many of them to break even more laws than those related 
to how they entered the country in the first place.
    Second, an immigration reform has to deal with those workers that 
have yet to enter the United States and become part of the labor 
market. Most of these go because of a permanent demand in the United 
States for jobs that are either unfilled by Americans or legal 
residents, or that are more suited to non-U.S. workers. Recent 
estimates put this category of migrants at around 400,000 per annum, 
some of whom stay on in the country but some of whom also return to 
Mexico. One of the major shifts in the immigration paradigm is that 
this category today is no longer made up primarily of agricultural 
workers without jobs at home, but increasingly comprises service 
providers that are employed at least part of the time and who seek to 
go to the United States mainly to make and save more money. For this 
group, the ability to come and go is essential, yet ever-increasing 
efforts to impede the circularity of their movement across borders has 
resulted in their being forced to remain in the United States and join 
the first category of resident undocumented aliens.
    A third element of the strategy relates to a proposal to remove 
Mexico and Canada from the overall immigration country quota system. As 
neighbors and NAFTA partners, both countries have a unique relationship 
with the United States. There are many visa categories that could be 
added to the NAFTA visa that would allow for a greater number of people 
to travel to the United States but that currently can't be used because 
of the quota system. Increased effective visa opportunities would act 
as a deterrent to illegality.
    The fourth pillar of Mexican policy relates to border security. It 
is abundantly clear that the illegality of migrant worker crossings has 
spawned an extremely powerful and pervasive network of gangs, 
smugglers, and other organized criminals who not only prey on Mexicans 
trying to cross, but are also involved in additional activities outside 
the law such as drug trafficking, arms dealing, etc. As we have seen 
just in the last few months, the situation at the border with the 
United States has reached crisis proportions. Unless and until both 
governments bite the bullet and reach an understanding on an all-
encompassing joint border security initiative--with adequate funding 
and infrastructure--the violence and criminal activity at the border 
will remain unabated.
    Finally, the fifth part of the strategy is the need for a major 
developmental program to raise the standards of living and employment 
opportunities for those Mexican citizens who live in the poorest part 
of the country and come from areas that provide the lion's share of 
migrants. The Fox administration has made some progress in this regard 
with special programs designed to complement remittances with 
infrastructure investment (the 3x1 program), raise educational 
standards and design policies for these economically and socially 
depressed regions. However, the efforts undertaken so far have not made 
a sufficiently large impact on the growth equation. The United States 
has an important role to play as well on this issue as can be seen from 
the Partnership for Prosperity initiative, but it needs to be augmented 
and widened in its application.
    The strategy outlined above came in large measure from President 
Fox's overriding foreign policy goal at the outset of his single 6-year 
term to do two things: Improve the relationship with the United States 
and remove as many irritants as possible, and fulfill a campaign 
promise that this government would, as a priority, defend the interests 
of those Mexicans living and working in the United States. 
Unfortunately, the events of 9/11 put a temporary stop to the meetings 
between Cabinet-level working groups that had been discussing and 
negotiating various aspects of these proposals. To this day, their 
bilateral nature remains a critical element which the Bush 
administration has been reluctant to pursue, but which, from my point 
of view, is essential if any successful reform of the immigration 
relationship is to take place. This is an important point: Unilateral 
measures relating to immigration which are adopted by the United States 
without consultation and agreement with Mexico are doomed to fail in 
the same way that past amnesties and immigration law reform neither 
stemmed the flow of undocumented workers, nor alleviated the 
mistreatment and abuse that many of them suffer while in the United 
States.
    Now that the executive and legislative branches in Washington have 
expressed the intention of pursuing immigration reform, it is 
especially important that Mexico be engaged in the process. This is for 
two main reasons: If there is no cooperation from the source country on 
either a guest worker program, or an earned regularization scheme, I 
cannot see how the United States, on its own, will be able to deal with 
the enormous operational complexities involved. Second, Mexico has to 
be made to play its part in ensuring that whatever system is set up 
becomes the single avenue for people wanting to go to the United States 
to work. This means that as a part of the bargain, the Mexican 
Government would have to undertake an obligation to ensure that orderly 
and legal movement across the border becomes the norm, and that 
measures are taken to dissuade people from going differently. Of 
course, this presupposes having enough visas, whether temporary or 
permanent, to give to Mexicans who have job offers in the United 
States, who want to reunite with their families already there, or who 
seek to legitimately move from one country to the other as tourists, 
students, teachers, businessmen, etc.
    I believe that if there were sufficient avenues for Mexicans to 
move relatively freely between our two countries when able to prove 
that they have legitimate reasons to do so, a large proportion of the 
undocumented flows would cease. Obviously, it is unrealistic to expect 
Mexico to accomplish what the United States itself--notwithstanding 
billions of dollars and thousands of enforcement personnel--has been 
unable to accomplish, i.e., the elimination of all undocumented 
crossings. However, Mexican authorities will have to assume their 
shared responsibility to make the system work and unless there are 
bilateral agreements to frame that cooperation, it will continue to be 
easy for the Mexican side to revert to its traditional rhetoric of 
saying that this is a U.S. problem.

    The Chairman. Well, thank you very much, Mr. Castaneda. We 
appreciate your testimony, as always. Your work with this 
committee is much appreciated.
    Let me mention that my colleagues, Senator Dodd and Senator 
Nelson, have long had deep interest in these issues. I am so 
pleased that they are part of this hearing. Let me ask that we 
have a 10-minute period of questions for each of us. I will 
recognize my colleagues, first Senator Dodd and then Senator 
Nelson, and then I will have questions as a roundup, and then 
we will proceed to the next panel.
    Senator Dodd.
    Senator Dodd. Senator Nelson was here before I was.
    Senator Nelson. He is senior to me.
    The Chairman. Very well. Senator Dodd, you are nominated.

   STATEMENT OF HON. CHRISTOPHER J. DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Enough of this age stuff here.
    The Chairman. Thank you.
    Senator Dodd. Well, first of all, thank you, Mr. Chairman, 
very much. I am going to ask unanimous consent that an opening 
statement be included in the record.
    The Chairman. It will be placed in the record in full.
    Senator Dodd. It has been made already, the point has been 
made, and I am sorry I was not here to hear the testimony of my 
colleagues earlier. It is a delight to have our distinguished 
friends and neighbors from Canada and Mexico with us and we 
thank you both for being a part of this hearing. Jorge 
Castaneda and I have known each other a long, long time and it 
is a pleasure to have you back before this committee, Jorge, 
again.
    Obviously, Mr. Chairman, since NAFTA and the controversy of 
NAFTA, but I think we all agree today that the explosion of 
trade between our countries as a result of NAFTA has been a 
tremendous asset for all of us here. There is no doubt in my 
mind about that whatsoever.
    The reverse is not as great--the United States and its 
major trading partners, Canada and Mexico, but it is just as 
true that of the NAFTA countries that accounts for more than 80 
percent of Canadian and Mexico's totals. So, obviously, there 
is a great deal of interdependency here that is welcomed by all 
of these countries.
    Travel obviously has increased, as you all have pointed 
out. The numbers are not terribly clear, but somewhere between 
4 and 500 million crossings a year if you use the 7,000 miles 
of common border, the more than 300 airports, ports, and other 
points of entry are included. It is a staggering amount of 
territory to cover, 7,000 miles and 300 harbors and ports, to 
gain some control over all of this. Obviously, the trade issues 
have exploded, obviously, the amount of travel that occurs.
    So, it is an exciting time and one that obviously raises 
serious issues. It was, I think, appropriate to point out that 
the timeliness of this hearing, in light of what happened last 
week in London. While we have 8 million or so undocumented 
workers here, we all are painfully aware that it does not take 
many. It can be as simple as one or two to cause the kind of 
destruction and havoc we have seen in London and elsewhere 
around the world.
    So these conflicting issues of expanding trade and 
opportunity--I want to underscore the point of Mr. Beatty as 
well here, and by Jorge Castaneda. We have got to be so careful 
as we move forward here that we do not end up giving terrorists 
a greater victory than that which they have already achieved by 
becoming so gripped by the fear that obviously these acts 
convey that we end denying ourselves and our neighbors and 
friends the opportunity to improve the quality of lives of 
their people. There is a danger in all of this, in my view.
    So let me, if I can, ask some of you--and I presume you are 
familiar, enough familiar with some of the legislation that has 
passed the Congress recently. This Real ID Act of 2005 is one 
that I know you both must be familiar with. Are you both 
familiar with this, the Real ID Act? Well, this established 
identity card standards for the issuance of driver's licenses, 
waived laws to facilitate the construction of a border fence 
near San Diego, and required a pilot test of ground 
surveillance.
    I wonder if you might just give us your assessment in terms 
of enhancing security, in terms of reducing the flow of illegal 
immigrants to the United States, of the impact of the Real ID 
Act?
    Mr. Castaneda. Senator Dodd, I think the position of just 
about all Mexicans from the government to the opposition to the 
press, the business community, is very critical of the very 
notion of real ID. On the contrary, in the Fox administration 
when I was there and even subsequently what we have tried to do 
is to find ways to obtain either driver's license or driver's 
permits for Mexicans in the United States who do not have other 
papers, because, regardless of the other papers that they have 
or do not have, they should be able to drive, they should be 
able to insure themselves and their cars, they should be able 
to be on the highways in a situation that is legal, that is 
law-abiding, and that can contribute to everybody's security.
    Also, the notion of building more walls, which Real ID also 
includes, is something that we all considered in Mexico to be 
very negative. That is not the way we are going to solve these 
terribly complex problems that you have addressed, that 
Senators McCain, Kennedy, and Cornyn are addressing, and that 
the Bush administration has pointed to from the very beginning.
    So I think the overall reaction has been very negative and 
I share that very negative and very critical view of Real ID.
    Senator Dodd. Mr. Beatty.
    Mr. Beatty. Senator Dodd, I think the primary focus is 
obviously on the southern border in this particular instance. 
But from a Canadian perspective we do have a very real interest 
in knowing who is crossing the border going either way. We are 
interested in ensuring that there is adequate identification 
and that there is proper security for that.
    The key is to collaborate in developing the standards and 
to do so in a way which does not glut up the border. We were 
having a problem even prior to 9/11 that our border was 
becoming dysfunctional simply because of the volumes of trade 
that were going across and increasing volumes of individuals 
crossing and the fact that in the Canada-United States border 
most of the key border crossings are at natural chokepoints 
across bodies of water and as a consequence you cannot simply 
slap on another lane.
    If we were attempting to manage the border in the same way 
as we did when I was Minister of National Revenue responsible 
for Canada Customs, it would have seized up long ago. So we 
have brought in new technologies. We are looking at new ways of 
dealing with the issues there. But what is absolutely key is 
that our countries move in unison with each other and that we 
do so in a way which allows us to make the border much more 
hardened against criminals and potential terrorists, but makes 
it transparent to legitimate travelers and legitimate commerce.
    I think it is possible to do that, but we do not do that 
through ill-considered proposals.
    Senator Dodd. And you think the Real ID is an ill-
considered proposal?
    Mr. Beatty. I am concerned about some of the impacts of it.
    Senator Dodd. Well, let me, because I think the tendency of 
people listening to this from the audience in the United States 
is to say, well, we have got to do this, this is the only way 
we can protect ourselves. I do not think they are as aware of 
what is happening in reverse. I was with some people the other 
day, Mr. Chairman, who do a lot of business in Brazil. When you 
arrive in Brazil today as a United States citizen, there are 
lines where you go through at immigration for everyone and then 
there is a separate line if you are from the United States, 
where the criteria and the burdens are significantly higher. I 
suspect this is in retaliation to some degree from these kinds 
of requirements that we are imposing on people coming to this 
country.
    What are the impacts likely to be on the United States in 
terms of our trade and commerce, tourism and the like? Are you 
seeing some indications already that, in fact, we may suffer 
economically as a result of other restrictions being placed on 
U.S. citizens who seek to travel to other nations in this 
hemisphere?
    Mr. Beatty. Senator, the approach, certainly that we would 
be taking in my association as it relates to the relationship 
with the United States, would be not to look at retaliatory 
measures. We do want to see symmetry, but we want to see 
symmetry based on standards which make sense from the outset.
    My primary preoccupation here today is the Western 
Hemisphere Travel Initiative, what the impacts will be as of 
the 1st of January in 2008, do we risk the possibility of 
simply glutting up our borders, and are we going to discourage 
travel by ordinary citizens who will find that the identity 
documents they have to acquire are simply too costly and 
cumbersome for them to get?
    Now, I think it is important for us to take the time to do 
it right and for us to ensure that we have common standards. We 
have an interest in knowing who is coming north. You have an 
interest in knowing who is coming south. It makes sense for us 
to work together in developing standards that will enable us to 
do this, that will provide for secure ID documents, but which 
will not cause the border to seize up and will not damage us 
both commercially.
    Again if I can turn the discussion to the Western 
Hemisphere Travel Initiative, one of the very real concerns 
that Canadians would have is that it is quite common to have 
North American international conferences. We host them 
frequently in Ottowa, Montreal, Toronto, and Vancouver. But a 
low percentage of Americans today even have passports. The 
issue is not getting into Canada today for the Americans; it is 
getting back home under that proposal.
    The impact potentially upon our ability as people to get to 
know one another better could be disastrous unless we design it 
right.
    Senator Dodd. Well, that is the kind of point I am raising 
here and it is exactly the point I wanted to make here, that 
this is not only a burden on our neighbors to the north and 
south of us. It is going to place an extraordinary burden on 
U.S. citizens as well, and that is the point I am trying to 
make.
    Mr. Castaneda, do you want to comment on that?
    Mr. Castaneda. Yes, Senator. I think it also runs contrary 
to other aspects of what we are trying to do and some of the 
spirit, at least, of the Waco three-country communique. In 
Mexico we have been trying now, the Fox administration and 
others have been trying, for about 5 years now to get some 
preclearance done in at least one pilot project in a Mexican 
airport, perhaps Cancun, perhaps Los Gatos, something like 
that, like what the United States has with Canada and what it 
has with Ireland and the Bahamas, precisely in order to enhance 
and improve and increase United States tourism to certain 
Mexican destinations from airports in the United States that 
are not international airports.
    This initiative that requires for practical purposes 
passports for Americans to come back into the United States 
from Mexico and Canada, goes exactly in the opposite sense. It 
is going to make it more difficult. So what do we want? Do we 
want to make it easier or do we want to make it more difficult? 
We want to enhance travel, security, fluidity and movement of 
people and goods and services, or do we want to make it more 
complicated?
    I think that that initiative goes in the same direction as 
Real ID, the wrong way.
    Senator Dodd. Can I ask one additional question, Mr. 
Chairman, just briefly?
    The Chairman. Yes.
    Senator Dodd. Let me jump to the standardization issue very 
quickly. The feasibility of this is what I would like to hear 
both of you briefly comment on, because a lot of people say it 
sounds wonderful, but how do you really do this? The question I 
think most people would want to ask is, respectfully, since 
both of you are here ask about Mexico and Canada, what are 
Mexico and Canada going to be able to do--and you addressed 
this, both of you to some degree--to provide the kind of 
security within your own borders that third parties are not 
going to be able to enter your countries and come here?
    That is the great fear we have here. So standardization is 
appealing. How feasible is it, and what steps are both of your 
countries likely to take to give us the assurance that you are 
not going to have porous borders that raise threats to us?
    Mr. Castaneda. I think, if I may, sir, I think that this is 
the central issue on the security side of the equation, which 
is why I mentioned there has to be a security side and there 
has to be an immigration side. The security side can be 
increasingly addressed. I think more and more people in Mexico 
today understand, for example, that our southern border has to 
be brought back under control. We have to bring it back under 
control, but we have to do it clearly, actively, proactively. 
We need money to do it. We need political will to do it. It has 
to be done.
    We are having enormous problems with the Salvadoran gangs, 
the Mara Salvatruchas, in southern Mexico. We are having 
enormous problems with prostitution, drugs, everything, on our 
southern border. This is as much our problem as it is anybody 
else's.
    I think there is now the political will and decision in 
Mexico to confront this issue squarely and clearly. I think it 
would be better for Mexico to address this issue in cooperation 
with Canada and with the United States than alone, in the same 
way I think it would be better for the United States to address 
the immigration issues that you have all raised together with 
Mexico--perhaps Canada there is less directly involved--than to 
do it alone. I think we have to move in that direction, 
Senator.
    Mr. Beatty. Senator Dodd, you have put your finger on what 
is the central issue here. In my political career I had 
responsibility for virtually, at one time or another, for 
virtually each of the security and intelligence agencies for 
which Canada is responsible. One of the things that I know is 
that we have to look at protecting ourselves not by simply 
focusing at a line along the 49th parallel, but rather at 
looking at a series of concentric circles of sovereignty.
9/11, it was the border in part between Frankfort, Germany, and 
the United States, as opposed to the border between Canada and 
the United States, that was of concern.
    To the extent to which we can push out the intelligence 
that we have offshore before we know, before anyone even 
arrives in North America, to the extent to which we know that 
cargo is safe before it comes to North America, to the extent 
to which we can collaborate in sharing police and security 
intelligence to intercept threats within North America before 
they hit the border, we will be far more secure.
    But to simply focus our efforts on the border itself, and 
certainly to do anything akin to militarizing the border or to 
putting fences along, certainly along your northern border, 
would be a retrograde step and would mean misallocating 
resources and focusing on the wrong area.
    The key for us when we are looking for the needle in the 
haystack is to shrink the size of the haystack and to be able 
to focus our efforts on the area of highest risk. We are doing 
that by sharing intelligence, by putting teams internationally 
offshore, by working together in managing our common border, by 
looking for secure ID standards which will be compatible for 
both countries. That is in my view the best way to proceed.
    Senator Dodd. I thank you both.
    Mr. Chairman, thank you very much. Very helpful.
    [The prepared statement Senator Dodd of follows:]

   Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, I would like to thank you for holding this hearing 
today. Especially in light of the tragic events last Thursday in 
London, the issue of border security couldn't be more timely. Indeed, 
ensuring the security of our borders is such a critical issue because 
it speaks directly to both our national security and our economic 
security. I would also like to commend you for assembling the expert 
panel of witnesses before us today. They bring a great deal of 
expertise to the issues we are here to discuss and I trust that their 
input will help shed much light on the challenges and opportunities 
before us.
    Since the signing of NAFTA, trade in North America has boomed. The 
United States now conducts one-third of its trade with Canada and 
Mexico. The reverse statistics are even more astounding. Trade with 
NAFTA countries accounts for more than 80 percent of Canada and 
Mexico's totals. So we are obviously economically very interdependent.
    This steep increase in trade has also brought increased travel 
between our three nations. Our land borders will be crossed over 400 
million times this year. While this increased activity of people 
crossing our borders has brought the promise of trade and cultural 
exchange, it has also increased the danger that unwanted visitors--be 
they ordinary criminals or homicidal terrorists--could enter the United 
States.
    It wouldn't be much of a stretch to say that once here, it is 
highly likely that such unwanted visitors could disappear into the 
proverbial woodworks. After all, there are currently over 8 million 
undocumented aliens here in the United States. The overwhelming 
majority of these people are honest, hardworking people looking for a 
better life than they have in their home countries. And although they 
might arrive or stay illegally, they are simply looking to share in the 
American dream. But the sheer numbers force us to remember that it only 
takes one person to commit an act of terror--and one person can be 
easily lost in a pool so big.
    That's one of the major reasons why comprehensive immigration 
reform that gets these people on the books is so important. I commend 
my two colleagues here today--Senators Kennedy and McCain--for their 
dedication and hard work to address the issue of immigration reform.
    There are other incidences where our national security and our 
economic security overlap. An example of this is with the issue of 
energy. As a recent Council on Foreign Relations report pointed out, 
``In 2004, Canada and Mexico were the two largest exporters of oil to 
the United States. Canada supplies the United States with roughly 90 
percent of its imported natural gas and all of its imported 
electricity.'' Obviously, therefore, any disruption of the flow of 
energy across our borders would have both severe economic and severe 
national security implications for America.
    These points all make it clear that the increase in activity at our 
borders has brought an unprecedented level of interdependence. This 
interdependence means that the futures of our countries are no longer 
independent--they are now shared for better or for worse.
    That is why it is so important that as we move forward on North 
American border security issues, we do so in tandem--trilaterally--
instead of having two bilateral approaches or simply acting alone. 
Because the degree of success we achieve on securing our borders will 
be directly proportional to the degree with which we are able to pool 
our resources and cement in the minds of all the belief that our 
security interests are shared.
    That is why I am pleased that this past March, Presidents Bush and 
Vincente Fox, as well as Prime Minister Paul Martin of Canada, 
announced their support of increased cooperation in the economic and 
security spheres--specifically creating the Security and Prosperity 
Partnership of North America (SPP). As part of the SPP, working groups 
to address and quickly report back on security and economic issues for 
our three nations were established. I hope that the concept of the SPP 
sets a trend for how our three nations will deal in the future with 
issues of mutual concern.
    Mr. Chairman, again, I commend you for holding this very timely and 
important hearing. I hope it will contribute to real progress for the 
protection and prosperity of our three nations. And I look forward, at 
the appropriate time, to asking questions of the excellent panel of 
witnesses we have before us.

    The Chairman. Thank you very much, Senator Dodd.
    Let me just mention, at least, the order of our 
questioning. I recognize next, as I mentioned, Senator Nelson. 
Then I will recognize the distinguished ranking member of the 
committee, Senator Biden, for his opening statement and/or 
questions, and then we will welcome Senator Obama, who has come 
together with us.
    Senator Nelson.

    STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Thank you, Mr. Chairman.
    You can see the interest of the committee on this subject. 
Clearly, it seems to me that we are going to have to find a 
solution to the large number of undocumented workers, 8 to 10 
million estimated, in the country. You cannot round them all up 
and ship them home. On the other hand, I am not in favor of 
blanket amnesty. So there has got to be some solution that is 
found and then build a consensus around it.
    This is one of the thorniest problems that any 
administration or Congress would take up. For us to do nothing 
is setting policy by doing nothing, and that is not a solution.
    I do not want to do anything that encourages more people to 
come illegally. Yet we have the need to improve the enforcement 
of our borders to facilitate those who want to come here 
legally and to keep out those who would come here illegally. It 
has already been stated now we have, of course, the need to 
protect our borders to protect ourselves.
    So with regard to that, I would like to ask, specifically 
you, Mr. Castaneda--Es corecto?
    Mr. Castaneda. Corecto, senor.
    Senator Bill Nelson. OK. We have implemented in this 
country advanced cargo manifest requirements for all modes of 
transportation: Air, truck, rail, sea. Canada has begun to 
institute similar requirements. Is Mexico planning to develop 
and implement similar rules?
    Mr. Castaneda. To the best of my understanding, Senator--
and I am no longer in government; I left the Fox administration 
a couple of years ago--that is the situation. I know we are 
sharing a great deal of information, our two countries, three 
countries, are sharing a great deal of information, for example 
on passenger lists on flights not only coming from Mexico to 
the United States, obviously, but even on flights from Europe 
to Mexico overflying the United States without landing in the 
United States. You may recall an incident that occurred with 
the KLM flight from Amsterdam to Mexico City a few weeks ago in 
that aspect.
    We are also sharing a lot of information regarding third 
country visa applicants in third countries, where on certain 
occasions--I did this under my administration--in Colombia, for 
example, we would clear visa requests with the Canadian Embassy 
and the United States Embassy in Bogota before granting visas 
to people who wanted to come into Mexico.
    I know we are working, though I know less about it, on the 
cargo issues also. So I think there is an absolute willingness 
and decision on the part of the Mexican Government--I think 
this would be true of any Mexican Government--to cooperate 
fully with the United States and with Canada on these issues.
    The point I wanted to emphasize, though, Senator, and I 
will do it again, is that it will be not only easier but much 
more consensual in Mexico if this is done in the context of an 
overall security and immigration package of agreements, 
measures, reforms, et cetera. There are many things that we 
should do, but there are many political realities also in your 
country and in our country. In the same way that immigration is 
a terribly sensitive issue in the United States--we all know 
that--security cooperation, some of the aspects in Senator 
Lugar's bill regarding military cooperation between Mexico and 
the United States are very, very sensitive in Mexico.
    It is not easy for any Mexican Government to move forward 
on that. It can be done in a package. If it is done in a sort 
of salami-type arrangement, slice by slice, I am not sure it is 
going to work.
    Senator Bill Nelson. One of the reasons I supported CAFTA 
the last week that we were here before the break was that not 
only the economic commerce, but the necessity that we see 
democracies in some cases that are struggling in Latin America 
continue to be strengthened by economic development. I think 
clearly that is what CAFTA was going to do and it helps my 
State as well.
    We import in Florida a lot of goods coming out of the 
Caribbean and out of Central America, indeed with Mexico as 
well. We have just got to find a solution here to increase--we 
are looking at less than 5 percent of the container cargo that 
is coming into this country. Of course, that invites enormous 
mischief by someone who would do us harm.
    Supposedly, ports in the Caribbean that are state-of-the-
art ports. On the surface they look good for their security. 
They are transshipment points for container cargo. But that is 
not the truth. The truth underneath is that the security is not 
nearly as good as it is made out to be. So we have clearly got 
a concern as we develop legislation that you are planning to 
do, Mr. Chairman.
    I want to thank my senior colleagues for the privilege of 
going ahead. I have an opening statement, if I might enter that 
in the record.
    The Chairman. It will be placed in the record in full.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    [The prepared statement Senator Nelson of follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator From Florida

    Mr. Chairman, I am greatly interested in this issue and thank the 
Senators and Congresswoman for coming to discuss these issues.
    It is crucial that we implement a comprehensive homeland security 
plan that includes both immigration reform and cooperation with our 
neighbors to the north and south. This is tricky but must be done. We 
cannot truly secure our borders without this cooperation.
    One thing that is clear is that we must resolve the illegal 
immigration problem we have so that we can focus our limited resources 
on finding the people who wish to do harm to the United States. As you 
all know this is an extremely complex problem. Helping to improve the 
border security of southern Mexico and the Caribbean basin nations is 
critical to strengthening our Nation. We cannot allow those nations to 
continue to have porous borders in a time when people from all over the 
world are using these countries as gateways to the United States.
    In addition, however, we must focus on helping Latin American 
countries improve economically so that the incentive and draw to come 
to the United States illegally in order to work is reduced. People will 
continue to come across our borders legally or illegally regardless of 
the number of agents we put on the ground and the ease with which 
people can get a visa. They will continue to come until the economic 
incentive to do so is gone. Immigration reform and increased border 
security coupled with intense cooperation between ourselves and Mexico 
and Canada will certainly work toward enhancing our national security 
and stemming the flow of illegal immigrants. However, as I stated it is 
simple economics that as long as someone is willing to work for less 
than his neighbor is, he will find work.
    Therefore, we need to focus on not only discouraging immigrants 
from risking their lives to come illegally but we need to ensure that 
U.S. businesses are not hiring illegal immigrants--thus simply 
encouraging the continued flow. And as I stated, we also need to do 
what we can to help Mexico and surrounding nations improve their 
economies so that their citizens will choose to stay at home.
    I would like to invite any of the panelists to comment on how the 
proposals address the underlying economic incentive structure currently 
in place that encourages illegal immigration?

    The Chairman. Thank you very much, Senator Nelson.
    Senator Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Chairman, thank you. Let me explain to 
my colleagues, our colleagues, why I was late. There is a 
matter relating to rail security that is of great concern to 
me, to all of us, to my State, and to the region. I was at a 
press conference laying out a bill. That is the reason I am 
late.
    But it leads me, and I will be very brief because I came 
after my colleague from Illinois.
    Fellows, you have figured it out. Mr. Ambassador, you were 
one of the most sophisticated and best folks I have known when 
you served here and now you are educating some of our students 
and others at NYU. You all get it. There is a sense, rightly or 
wrongly, on the part of an awful lot of Americans that both 
Canada and Mexico, for different reasons, do not view the 
threat of terror to the same degree and the same sense of 
urgency as we do.
    When speaking with a number of your parliamentarians, Mr. 
Ambassador, they point out that they think we are somewhat 
hysterical about terror, that we have overreacted. That does 
not mean that this is the government's position. But the point 
is there is a sense here in this country among those who think 
about it that it is a little bit like what the drug problem was 
20 years ago: It is America's problem; why should I worry about 
America's problem?
    I remember meeting with your predecessor governments back 
as far as 25 years ago and they said: Hey, it is not our 
problem; it is your problem. You have the consumers. If you did 
not have the consumers, if you did not have the market, there 
would not be the problem. It was the same mentality that a lot 
of people think pertains to border security.
    As a matter of fact, some cynics even suggest that it is a 
hell of a lot better for you all to let them through than to 
try to contain it, because you are more likely to be a target 
if, in fact, you contain it. Not that you would knowingly do 
anything like that, but there is a cynicism afoot.
    Mr. Ambassador, you indicated that--and I think you are 
right--excuse me, Foreign Minister. I made you an ambassador. I 
demoted you.
    Mr. Beatty. I have been demoted before, Senator. 
[Laughter.]
    Senator Biden. Well, you can call me Congressman Biden if 
you would like. That is a bad joke, a bad joke. You can call me 
Councilman Biden.
    Mr. Minister, you, I think, are correct, there has to be a 
construct in which we can get our arms around this. That is, 
both security and immigration in the case of Mexico. In the 
case of Canada, I think a lot more is being done.
    I would like to ask you a straightforward question and you 
get a ``Get Out of Jail Free'' card. You can say you do not 
know. I know you know, but you can say you do not know and you 
can say you do not have an opinion, and that is OK. Give me 
your honest opinion of what you think the sense of urgency, to 
the extent that it exists in each of your countries, not with 
your government, among the populace at large, as to how high a 
priority border security is?
    I do not hear a whole lot of Canadians--and my deceased 
wife's family is Canadian. I do not hear a whole lot of 
Canadians worrying about traffic going across into Toronto from 
the United States. They worry about drugs, they worry about 
other things, but they are not worried about terror being 
exported from Niagara Falls into Toronto. A lot of folks on the 
other side, in upstate New York, worry about it coming the 
other way, not from Canadians, but from notions that this is 
not that big of a deal.
    So can you give me, as honestly as you are prepared to, as 
frankly as you are able to, what you think the attitude is in 
your countries about the importance of border control as it 
relates to weapons of mass destruction, individual terrorists, 
or terrorist activities?
    Mr. Beatty. Well, Senator, perhaps I can start on that. And 
we certainly understand that you had other business to attend 
to before coming here.
    In my opening remarks I stressed the fact that we 
Canadians, particularly the Canadian business community, does 
not see security and terrorism as America's problem. We see it 
as our problem as well. Osama bin Laden has issued a list of 
countries which are potential targets that he wants his 
followers to attack. Canada is the one country on the list that 
has not been attacked as yet.
    There is an inclination sometimes people have to say, well, 
Canadians are good guys, nobody would want to attack us. 
Australians are good guys, too. They discovered in Bali that 
they were a target as well.
    What London last week underscored is that no free society, 
particularly one which is a neighbor of the United States, 
which has troops in Afghanistan, which is collaborating on 
security issues, no free society is potentially not a target. 
It is important for us to ensure that we are neither a target 
ourselves nor a staging point for attacks on our neighbors.
    I live in Ottowa and my home is a few blocks from the 
American Embassy, from the American residence. My office is 
three blocks away from the American Embassy. If American 
installations in Canada are soft targets, Canada is potentially 
a target as well. Canadians are very much aware of this.
    What London demonstrated again last week is it is the 
values that free societies subscribe to, values of tolerance, 
of freedom, of diversity, that make a country a target. What 
was particularly odious in the case of London, as was the case 
in New York as well, was that it was ordinary people who were 
the targets.
    We have learned a lesson from that in terms of the fact 
that Canada is potentially at risk. The assurance that I can 
give to you and to your constituents, to people in New York and 
elsewhere, is that we see it not simply as doing the right 
thing for the United States, but as being in Canada's interest 
that we do everything that we can to ensure that people who 
pose a threat either to you or to us never get into North 
America in the first place; and second, if they are in North 
America that they are found and that they are dealt with long 
before they ever reach one of the borders, period.
    Mr. Castaneda. Senator, I tend to agree with you in the 
sense that I think overall public opinion in Mexico today does 
not consider that Mexico is suffering from a true threat of 
terrorism and consequently, in the analogy that you used, which 
I think is very appropriate, this is your problem, as drugs 
were your problem 20, 25 years ago.
    I also think nonetheless that things are changing and that 
there are many of us who from the very beginning, as with 
drugs--and I remember our conversations and negotiations at the 
beginning of the Fox term regarding the changes that, thanks to 
all of you, were brought about in the former congressional 
certification process, which was a real nightmare for Mexico 
every year and which, thanks to your help, we finally got off 
our back, so to speak.
    I think that attitudes in Mexico have changed in relation 
to drugs and I think that they are also changing in relation to 
terrorism, that there is a sense in Mexico, particularly as 
cooperation with the United States increases--and it is 
increasing--and as cooperation with Canada is increasing--and 
it is increasing--that the threats of terrorism to the United 
States are threats that are also extensive to Mexico and to 
Canada and that we have to view this from a North American 
perspective.
    That does not mean, Senator, of course, in the same way as 
in the United States, that everyone in Mexico who subscribes to 
these points of view, as myself, necessarily agrees with every 
decision made by the United States administration, for example, 
in the war on terrorism.
    Senator Biden. I do not agree with it all.
    Mr. Castaneda. I know full well, and I know Senator Dodd 
does not either. I know that in Mexico there are many views on 
this.
    But I do agree with you completely on this fact that we 
have to find a way in Mexico to understand that these are 
common security threats. A threat to the United States, to 
London, to Spain, the Atocha attacks in Madrid 2 years ago, all 
of these terrorist attacks are attacks that can happen in 
Mexico any day of the year, and for the same absurd reasons 
that they happen elsewhere. There are no good reasons for 
terrorist attacks and consequently they can happen anywhere at 
any time.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Biden.
    Please proceed, Senator Obama.

   STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman.
    The ranking member asked some important questions and I 
think they encompass a broader concern. I think when I think 
about immigration I think there are a number of elements to it, 
some of which have been covered today. The politics of 
immigration in this country are extraordinarily complex and I 
think Senator Biden was touching on whether the politics in 
your countries can generate the same amount of effort.
    So let me turn to you, Mr. Castaneda, first and just ask 
whether--from your testimony, I gather that you believe that 
without comprehensive immigration reform it is going to be hard 
to initiate anything piecemeal. Do you get a sense right now 
that your country is prepared to make significant investments 
if, for example, Senator Kennedy and McCain's bill moves 
forward, that, in fact, you would see some concomitant 
investments in terms of border security or other strategies on 
the other side of the border at this stage?
    I mean, is there enough sort of political momentum that 
people would see that as a fair trade?
    Mr. Castaneda. I do believe so, Senator Obama. I think that 
precisely what the Fox administration has been able to do--and, 
of course, it is winding down; we are only a year away from the 
elections and a year and a half away from President Fox leaving 
office. But I think what the Fox administration has been able 
to do is precisely to explain to the Mexican people that if we 
can get the sort of agreement or reform in the United States 
that addresses all of these issues that I mention in my opening 
remarks, regarding Mexicans already here, and in your home 
State in particular, Mexicans who will continue to come because 
that is what the demographics and the economics of our 
relationship imply, if we can get many of the things that we 
think are important, that we can put an end to the deaths in 
the desert every single day, then Mexico is prepared to do its 
share, prepared to put its money where its mouth is, but not 
only its money.
    It is not so much a question on our side of money. It is a 
question of political will, of making the very tough decisions 
on the southern border, the very tough decisions in the sending 
community, the very tough decisions along the chokepoints on 
the highways and air routes to the border, make the tough 
decisions that will make an agreement sellable in the United 
States and viable in the long run for the two countries.
    I think that today in Mexico this is doable, and I must say 
it is largely doable because President Fox has made an effort 
to educate Mexican society about these issues.
    Senator Obama. One of the continuing problems though, I 
assume, is the fact that you have got huge economic disparities 
between north of the border versus south of the border. I am 
wondering whether, even with a significant change in 
immigration laws here in the United States, let us say a guest 
worker program that was allowing more circularity, as you 
phrase it, between--across borders by Mexican workers, whether 
just the economic pressures are so severe that it is very 
difficult for an administration to take serious steps to curb 
immigration south of the border or to make significant steps to 
secure those borders if people are having a difficult time 
making ends meet back home. I am wondering whether you 
envision, just based on your read of the Mexican economy, the 
ability to generate sufficient economic development on the 
southern end of the border that those pressures would be 
alleviated just by a 400-person guest worker program, for 
example.
    Mr. Castaneda. Alone, I do not think so, Senator. In other 
words, we do have to get the Mexican economy growing at least 
one-and-a-half times and preferably twice as fast as the U.S. 
economy, so that over a 10- to 15-year period we can reduce the 
incentive for people to have to leave, legally or unauthorized. 
That certainly is the key point and I stressed that in my 
opening remarks.
    I do think, nonetheless, that there is a ceiling to the 
total number of Mexicans who will leave every year. It is 
around the 400,000 per year, maybe 450,000. It will remain at 
that level the next 10 or so years and then will begin to 
decline, strictly for demographic reasons, because we are 
getting old. Strange for a country that was so young for so 
many years, but population growth in Mexico has dropped so 
dramatically in the last 30 years that Mexico is a country that 
is beginning to age.
    So I think there is a ceiling. If we can humanize, 
legalize, and formalize that number, those 400 or so thousand, 
and we can have specific proactive policies in the sending 
communities, which are both developmental, but also set up a 
system of incentives and dissuasive factors in those sending 
communities--if you leave you lose this, if you stay you gain 
this. That is for us to do. It may be necessary to have some 
financing from abroad to do it. We have to do it.
    I am convinced that we can reach some sort of a mix of 
development, legalization, and policy in the sending 
communities, which are well identified--we know where people 
are coming from--that can put together a mix that would make 
this viable, Senator, I do believe so.
    Senator Obama. Just one last followup on this, and this is 
more on the security side of the equation. One of the things, 
obviously, that we would benefit from with a significant 
immigration reform would be the ability to track who comes into 
this country. But some of that would also be premised, I 
assume, on the Mexican Government's ability to regulate and 
track who is in Mexico coming here.
    I am just wondering at this point how up to date is 
Mexico's system of identity--cars, drivers. Here in the United 
States, driver's licenses and Social Security numbers have 
become, I think, the primary mechanism by which people identify 
themselves and present identification. I am wondering whether 
the system, particularly in rural areas, is sufficiently well 
developed in Mexico that we would even know, let us say, that 
if we set up a guest worker program who is in the country, who 
is coming here, who is going back, those kinds of sort of 
infrastructure issues. I do not know if that is something that 
you are familiar with from where you are sitting at this point.
    Mr. Castaneda. Well, I am certainly not an authority on it, 
Senator. But I think in general terms our mechanisms in Mexico 
are not sufficient. We do not have a national ID card. We do 
not have a national driver's license. You do not either here, 
but many other countries do. We have tax numbers, the 
equivalent of the Social Security number, but so few people pay 
taxes anyway that it is not terribly useful.
    We have a real problem in having a map of the country. On 
the other hand, local authorities and state authorities in 
certain sending states are very close to the sending 
communities, and they have been administering de facto 
temporary worker programs, legal or unauthorized, for many 
years, and they know very well what is going on.
    I think the main challenge we face, Senator, in Mexico--and 
we face it together from a North American security 
perspective--is our southern border. Mexico has to regain 
control of its southern border. We have to regain control of 
our southern border. We have lost control of our southern 
border, not last month; last many years. We have to regain it 
for our own security, for our own purposes, but also to 
contribute to North American security in the context of a broad 
North American perspective on immigration, on trade, and on 
development.
    Senator Obama. Thank you.
    Mr. Beatty, just very quickly. My sense is that north of 
the border you have got a different set of problems and much 
more security-oriented, less economic-oriented. Right now, I 
guess--and this again touches on something that Ranking Member 
Biden talked about--there is a perception, at least south of 
the border, that Canada's immigration policies are 
sufficiently--are generous, and that I think is a quality that 
Americans admire--but that because there may be a less sense of 
urgency on the part of authorities in Canada, that it is easier 
for potential terrorists to enter through Canada and then make 
their way down south into the United States.
    I am wondering, do you think that fear is justified and 
founded? If not, then where do you think that perception is 
coming from?
    Mr. Beatty. Well, thank you very much, Senator. It is an 
important question. To answer you directly, no, I do not 
believe that the fear is well founded. I believe it is real, 
though, and it is something that we have to deal with in Canada 
to help to make Americans aware of the measures that we are 
taking to protect our own security and yours, and also to 
demonstrate that we understand in Canada that 9/11 was a world-
changing event.
    What 9/11 told us was that in none of the western 
democracies were standards of security and immigration 
adequate. All of our countries had to make changes. We have 
done so in Canada. We have brought in new legislation and new 
procedures.
    One of the key elements--I know that one of the concerns 
often that is expressed in the United States is about our 
refugee determination system and the fact that our Charter of 
Rights and Freedoms applies to all persons in Canada, not 
simply all citizens. It means then that the process, the due 
process that one receives, may take longer.
    We do have the ability where somebody poses a threat to 
security, even if he is claiming refugee status, to act and to 
act now to make sure that he is under control. It is 
interesting to note that prior to our signing a safe third 
country agreement with the United States about a third of the 
refugee claimants in Canada originated in the United States. So 
if there was a security threat to the United States, these were 
people already in the United States who were then jurisdiction-
shopping coming north.
    Now, with a safe third party agreement with the United 
States, we are able to say: The American standards for 
determining refugee status are essentially the same as ours; 
you must have your case adjudicated in the United States 
instead of coming to Canada. This has significantly decreased 
the flow.
    The other point I guess I would make is, that we share 
intelligence with each other. One of the good things about a 
refugee determination system is that it encourages immigrants 
in Canada to surface. What we do not have is a large 
undocumented population of immigrants in Canada who we simply 
do not know who or where they are.
    If you know where the people are, who they are, in Canada 
or your own country, you are able then to take a judgment, 
whatever their legal status, as to whether or not they pose a 
security threat to your country or to your neighbor. Our system 
encourages people to surface if they are claiming refugee 
status and then we do an assessment on them in terms of 
security.
    The only other point I would make is that I am a very 
strong advocate of immigration and I do not want to leave any 
misconception about this at all. People coming to Canada today 
are no different from my family who came from Ireland back in 
the 1820s. They come to Canada to look for a better life and 
they help us to build our country. The organization that I 
represent, that represents the manufacturing sector in Canada, 
knows that we suffer from serious and growing skills problems 
and that our population is aging, as my colleague was saying is 
the case in Mexico, is the case in the United States as well. 
Immigration will remain for us a vital economic development 
tool which will enable us to strengthen our economy.
    But our determination is unshakable that we want to know 
who it is who is coming to Canada. We want to ensure that it is 
people who share our values of belief in freedom and tolerance 
and not people who would destroy it.
    Senator Obama. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Obama.
    Gentlemen, let me try to extend the parameters of this 
question in this way. There have been some advocates of what 
has been called a North America security perimeter with 
harmonized admissions and control policies, to make entry 
standards for any of our three countries equally rigorous, 
while improving security and facilitating commerce, travel, and 
transit among our three countries.
    This may seem like a bridge too far, given the more careful 
pragmatic circumstances of the legislation we have been 
discussing this morning. But at the same time, I would like 
each of you to express whether this is a desirable concept, 
this idea of a perimeter security in which we contribute to 
each other's ability to make sure the perimeter works and at 
the same time it facilitates transportation of goods and 
services, drugs, cars, people, and so forth within the three 
countries.
    If that is a useful concept, over what period of time? How 
long might this take to evolve, granted its desirability or 
even efficacy? Or, in fact, do we have three different 
countries, three different cultures, situations in which we 
have to understand that we are working together and will have 
to for any to be successful? You have made that point, and I 
think correctly.
    But what about the perimeter security idea? Do you have a 
thought about that, Mr. Beatty?
    Mr. Beatty. Yes, Senator. I have been, since 9/11, an 
advocate of the perimeter approach to security for North 
America. It simply make sense for us to push out from our 
shores the first line of defense. Certainly if we are looking 
at how we can best protect the United States from Canada, there 
are a handful of entry points into Canada from abroad, airports 
and ports. They are not land entries except from the United 
States.
    It makes infinitely more sense for us to know who is coming 
into North America through those funnels, which are 
considerably more constrained, than it is for us to try to deal 
with the 200 million border crossings between Canada and the 
United States each year. So that collaboration in a perimeter 
approach to security is something I advocate.
    Our government has been more reticent about the ``p'' word, 
as it is referred to in Ottawa, I think for political or 
sovereignty reasons. I was part of the government that brought 
in the Free Trade Agreement with the United States. I do not 
believe that either the FTA or NAFTA have impinged upon the 
sovereignty of our three countries. I think it has strengthened 
our three countries.
    I think our security collaboration to ensure that we remain 
free from terrorism strengthens all three countries and will 
allow us to have more open borders between--among our 
countries. This is vital for commercial reasons. I mentioned 
earlier in my remarks the million dollars a minute that our two 
countries do in business with each other. But it is vital, as 
well, that we know each other.
    I spend 2 weeks every year as a part-time constituent of 
Senator Nelson's. Many of you perhaps spend time in Canada as 
well. It is the fact--I have family living--my sister lives in 
North Carolina and is a U.S. citizen now. It is these ties 
between people that strengthen us as a continent, and I do not 
want to see us putting walls up in North America that drive our 
peoples apart.
    If we can collaborate on external threats to North America, 
we can have internal borders that are more open to legitimate 
commerce and legitimate travelers and continue to have our 
peoples know one another.
    The Chairman. Thank you very much.
    Mr. Castaneda.
    Mr. Castaneda. Senator, I tend to agree with this view of a 
North American perimeter. As a matter of fact, I brought it up 
with my former colleague and former Deputy Foreign Minister, 
John Manley, just after 9/11. The task force on building a 
North American community on the future of North America, 
chaired, as I said, by William Weld, Pedro Aspe, and John 
Manley, have suggested a perimeter ready by 2010.
    I think it is the sort of idea that we should work together 
toward--because as my colleague was saying, there are fewer 
entry points between Canada and the rest of the world and 
between Mexico and the rest of the world than between Canada 
and the United States and between Mexico and the United States. 
So it is easier, a little bit like the Europeans have done, it 
is easier to control at the entrance to North America than 
between countries in North America.
    It is obvious also that in order to facilitate transit of 
people, goods, and services among our three countries, we are 
going to have to regulate more strictly, and enforce more 
strictly, that transit outside of our three countries. The 
report even mentions a common external tariff to eliminate 
rules of origin provisions. That is moving it to a strictly 
economic area, but there is a certain logic to that also.
    I think we can do this, but I would emphasize, Senator, 
again it will not fly in Mexico without immigration. That is 
why we need the whole enchilada, Senator.
    The Chairman. Well, I think you made a very important point 
about the package situation. Immigration has to be an important 
part of that package. I appreciate the advocacy by both of you 
of the perimeter idea. It is one reason I raised the question, 
so you could once again be forthcoming with your responses, 
which are important because almost all of our debate, in a way, 
has been about the internal border predicament, although you 
have touched, Mr. Castaneda, upon the problems that Mexico has 
with its southern border, and in my opening comments I touched 
upon those too.
    As we have thought of other-than-Mexicans, the OTM 
personnel we have talked about, their ability to come through 
Mexico, if that is their choice, and then into our country here 
is certainly facilitated by the lack of having a strong 
perimeter for all of us.
    Likewise you have stressed, Mr. Beatty, that there are only 
so many entry points for those who are outside of our 
hemisphere to come in. In Canada you can control those, but it 
would be helpful perhaps to know you had American friends, 
Mexican friends, working with you on that.
    Let me go on to something that perhaps is even more 
controversial. In Senate Bill S. 53, which I introduced, I call 
for a sustainable energy economy for North America. At an 
earlier hearing about a year ago--and this was after a 
conference that several members of the House and Senate enjoyed 
in Mexico--I was emboldened by Mexican friends to surface at a 
hearing such as this one, the thought that with Pemex there 
were possibilities for modernization of facilities, for 
substantial investment that would enhance the productivity and 
the amount of oil flowing out of Mexico. This would be of great 
interest to the United States and perhaps to Canada in terms of 
energy security, given the world in which we live. In order to 
enhance this, American investment might be appropriate, and in 
a substantial amount.
    Mexican friends mentioned $10 billion, for example, perhaps 
as a starter, but at least a substantial investment, that would 
be beneficial in terms of the income and the gross national 
product of Mexico and jobs there, as well as energy security 
here.
    Although this rated almost no attention whatsoever in the 
press in the United States, it did rate a lot of attention in 
Mexico, understandably, and for reasons that I understand and 
that you understand: The sense of sovereignty, the sense of 
national identity with Pemex. With the entire history of that 
extraction industry, which I think is well known, there is the 
problem of how you move on to a different situation.
    Some American investment may or may not be appropriate, and 
maybe doubling of production is desirable but not important 
enough to get over the hurdle. That is not the only dilemma as 
we talk, however, about energy security for our hemisphere. But 
I acknowledge that that is one dilemma we have already crossed, 
at least in the committee in one hearing.
    I would like either of you to comment on the feasibility of 
some type of energy sustainability plan in a world in which all 
three of our countries find increasing dangers with reliance 
upon the Middle East in perpetuity. What about other sources, 
in a very competitive world when many others are looking for 
hydrocarbons?
    Do you have a thought about this, Mr. Beatty, first of all?
    Mr. Beatty. Yes, Senator. Canada is the most important 
foreign supplier of energy to the United States and we expect 
will continue to be so in the future. Secretary Snow was in the 
tar sands in Alberta, I believe this past weekend, with Ralph 
Goodale, our Minister of Finance. We have reserves in the tar 
sands the size of Saudi Arabia, so it is a vital energy reserve 
both for you and for us. I would see energy collaboration on 
hydrocarbons increasing in the future.
    We are also part of a unified electrical grid. When we had 
the blackout in North America, both you and we were affected by 
that a few summers ago.
    I would like to see our collaboration, certainly in the 
area of oil, gas, clearly in the area of electricity, but also 
looking in the area of new technologies, investment in new 
technologies which are less carbon-intensive. I think one of 
the discussions of the G-8 dealt with the issue of global 
warming and what might be a successor to the Kyoto Accord. I 
believe at the end of the day the solution for us is to be 
found through uses of new technologies, technologies that do 
not exist today, and that require investments by our countries 
on a major scale to make these breakthroughs. It is a win-win. 
It's a win for industry and picking up new technologies that 
may be more cost effective and efficient, particularly in a 
country like Canada, where heating and transportation costs are 
vital for us, and it is a win-win in terms of allowing North 
America to become more independently energy secure than it is 
today. So that that sort of collaboration among us I would like 
to see, both in the case of hydrocarbons and in the case of new 
technologies.
    The Chairman. Thank you.
    Mr. Castaneda.
    Mr. Castaneda. Senator, I would like to just briefly say 
what I think is possible and desirable and what is not. First, 
what is not, at least not possible. I do not think that in the 
short term changing the constitutional status of Pemex is a 
viable proposition, regardless of its desirability.
    That said, I think three or four things are possible. I 
think it is possible for Mexico to double oil exports within a 
5- to 10-year period, most of which inevitably will go to the 
United States. We have the oil. It can be gotten out of the 
ground and it can be exported. If we are now the first supplier 
of oil to the United States at around 17 to 18 percent of U.S. 
imports, doubling that I think would go--would greatly enhance 
U.S. energy security.
    I think it is possible to reform Pemex internally to make 
it more efficient, more productive, more cost effective. I 
think that can be done.
    Third, I think the most important thing that can be done is 
to use those increased revenues, earmarking them very clearly 
for Mexican development, for those three or four aspects that 
are basic: Security, education, infrastructure, and combatting 
poverty. I think those three things can be done without 
changing the constitutional status.
    This costs money. It costs between $12 and $15 billion a 
year for about 5 years. That is big money. As I think a 
predecessor of yours used to say, a billion here, a billion 
there, you are talking real money soon. But I also think that 
that money is available because the stakes are so high. We can 
find imaginative ways of financing this expansion of Mexican 
oil exports without changing the constitutional status of 
Pemex.
    If we try and insist on Pemex, we are not going to get 
anywhere. That is what former President Zedilla tried to do, 
could not do it. President Fox tried, could not do it. I think 
we should stop trying and work with what we have.
    The Chairman. Well, thank you very much for that testimony.
    Let me just say anecdotally, during this last recess, I had 
the privilege of going to Terre Haute, IN, in my home State, 
and dedicating an E-85 gasoline tank. It sits beside regular 
gasoline tanks, but the difference is, it uses 85 percent 
ethanol, 15 percent petroleum. It is not the only such tank in 
the country, but the only such tank in Indiana. I encouraged 
people, as a matter of fact, to build more of them, and 
automobile companies to have the flexible-fuel valves so that 
they can take advantage of this.
    I would guess that probably all three of our countries, as 
you have suggested, Mr. Beatty, will be working on biomass as 
well as corn base for our ethanol, and on hybrid technology and 
other ways in which we somehow will meet these problems, which 
are likely to be very important to our economies. Mr. Castaneda 
has talked about the need in Mexico for a rate of growth that 
is very substantial, but is unlikely to occur in this world 
without adequate energy resources. This is why I inject this 
into what otherwise is seen as a perimeter or immigration 
debate, as we try to think of the wholeness or fullness of our 
continent.
    Senator Dodd, do you have a further comment?
    Senator Dodd. Mr. Chairman, I was not planning to, but your 
questions are so excellent and the conversation so good it has 
provoked a couple of thoughts that I would just like to inject 
if I could.
    First of all, I think the perimeter idea, it picks up on 
Mr. Beatty's comment that it is wiser to shrink the haystack 
than to find the needle. I think that is what is at the heart 
of the proposal, the one that we ought to really pursue very 
aggressive in my view.
    I wanted to also point out, we had some wonderful 
interparliamentary meetings, most recently with Mexico. I have 
participated, I think, in almost every one of them over the 
last 25 years. It is the longest interparliamentary sessions 
the United States has, second only to Canada's 
interparliamentary meetings with the United States, which I 
have participated in a number of them over the years, not as 
many as I have with Mexico.
    A couple of points at this last meeting. Just to take issue 
a bit, Jorge, with--I cannot argue with the idea that you have 
got to deal with these issues in a totality if you are going to 
have some success. The political realities I think--and we 
discussed this at our meeting in Newport, RI, at the 
interparliamentary meeting--is the confidence-building measures 
that are necessary. I just do not have a lot of faith that we 
are likely to take on large, large legislative proposals in 
either of our countries here in a comprehensive way.
    Ideally, it is the way to do it. It makes all the sense in 
the world. But as a practical matter it is just very difficult 
to anticipate Congress adopting large comprehensive proposals. 
What was suggested, and something we need to do more frequently 
here, and that is we have these wonderful--and this 
interparliamentary meeting with Mexico, by the way, was one of 
the best I have attended in the 24 years. It was very engaging.
    But we need to have more ongoing contact with each other. 
We do this once a year. Occasionally there is some meetings 
that go back and forth. But we do not have the level of 
participation that we should have between our respective 
legislative bodies, nowhere near the level of contact that 
occurs at the executive branch level in our nations, because I 
think the more realistic approach is probably to begin with 
some confidence-building measures, and that if, in fact, Mexico 
could see that we were serious about these efforts then I think 
you can get commensurate responses from a Mexican Legislature, 
and you start to build on that.
    I think that is probably a more realistic approach to what 
we are talking about here today than the anticipate of some 
large bills that would deal with all aspects of these issues 
being adopted by either the Mexican Legislature, the Canadian 
Parliament, or the United States Congress. But we need to 
develop some better way of engaging in this ongoing dialog than 
we are doing.
    I think that idea was pretty much endorsed--Silvio 
Hernandez, the chairman of the Senate Foreign Relations 
Committee in Mexico, has been tremendously productive and 
constructive in these ideas. Jim Colby and John Cornyn, who was 
here earlier today, chaired the meeting, Mr. Chairman, and I 
think all of us endorsed this idea of trying to build on some 
confidence measures.
    Second, I want to endorse as well the comments by the 
chairman dealing with the energy issue here. My opening 
comments, which I have included in the record, point out this 
tremendous opportunity which exists here for us to really 
develop far less dependency on more precarious places around 
the globe for our energy resources, not to mention the kind of 
resource capacity that energy exploration and development can 
produce.
    We have just got to get over the notion--and again, this 
was a very productive meeting I had, not in a formal meeting, 
but one of these better meetings that sometimes occurs late in 
the evening when members of these interparliamentary groups sit 
around. Mr. Chairman, I was stunned, in meeting with my Mexican 
colleagues, how the issue of sovereignty and Pemex is just not 
on the table. I mean, it is just a total nonstarter, as it 
should be and I understand that.
    But the idea of substantial foreign investment, of joint 
venturing, is very welcomed. I think if we can get over the 
notion that we want to have ownership, 51 percent ownership, of 
Pemex and start really talking about serious joint ventures--my 
reaction was after a long evening talking with members who cut 
across the entire political spectrum in Mexico was a very 
welcomed notion of significant joint venturing with Pemex on 
these issues to improve the efficiencies, further develop 
exploration of these resources.
    So I think it is an issue we really need to pursue more 
aggressively, and obviously, Canada included as well in this.
    Last, I was struck with the whole notion about investment. 
While we certainly understand the difficulties that are 
occurring in the European Union today with the adoption of the 
various constitutions, but something that the European Union 
did I think we ought to try and develop to some degree if we 
can. Again, this is controversial, but I do not see how we do 
any of the things we are talking about without doing this.
    What the European Union did so successfully in my view was 
to make significant investments in their less developed 
membership earlier on. Mr. Beatty mentioned Ireland. I have 
cousins of mine--my family when they traveled from Ireland 
about the same time your family did, half of them went to 
Canada and half of them came here. So I have my cousins in 
Canada who but for where the ships happened to go those days 
would have ended up here or we would have ended up there.
    Mr. Beatty. Do you recall how they voted, Senator?
    Senator Dodd. Yes, we know very much how they voted. I will 
share that after the meeting.
    But the point being is the investments that were made in 
Ireland by the European Union, the investments that were made 
in Portugal and Greece, in Spain for instance. Today the 
tremendous growth that has occurred in these countries as a 
result of intelligent investments by the European Union in 
their member states that were not necessarily prepared to 
compete on an equal footing a number of years ago.
    I think the idea of investing in infrastructure in North 
America makes all the sense in the world, and it is, obviously, 
in our joint self-interest to be able to talk about doing that. 
Again, the resources coming from the coventuring on energy 
could not only be used, obviously, to improve the standard of 
living for people in Mexico or here or elsewhere, but also to 
be invested in how you improve the infrastructure, the physical 
infrastructures that are necessary to do exactly the kinds of 
things we are talking about here.
    So, I thank you, Mr. Chairman, for raising these issues. 
They are very thought-provoking and ones that we really need to 
pursue. But you should know as well that at our 
interparliamentary meetings, to the extent these have any value 
at all, there is serious discussion. We need to develop a 
framework on how we can implement some of these ideas.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Dodd is well known to both of you and has offered 
leadership on this committee for a generation on these issues. 
We really appreciate your coming together today and conversing 
with us in this hearing.
    Let me excuse you now, and we will call upon our next 
panel.
    Mr. Beatty. Thank you, Senators.
    The Chairman. Thank you, sir.
    The chair now calls Mr. David Aguilar, the Chief of the 
Office of Border Patrol, Customs and Border Protection, the 
Department of Homeland Security.
    [Pause.]
    The Chairman. Mr. Aguilar, we welcome you to the committee.
    The Chair is advised that Mr. Pardo-Maurer, the Assistant 
Secretary for Hemisphere Affairs, Department of Defense, will 
not be able to be with us. So we are delighted to have your 
testimony.
    Let me just mention for the convenience of all members that 
I am advised that we will begin a rollcall vote on the Senate 
floor at noon. We have a comfortable amount of time, but I just 
want to mention in the framework of the hearing that we will be 
concluding some time around noon or shortly thereafter.
    Meanwhile, we would like to hear your testimony, sir. Your 
entire statement will be made a part of the record. You may 
proceed any way you wish, and then Senators will raise 
questions of you. Please proceed.

 STATEMENT OF DAVID V. AGUILAR, CHIEF OF THE OFFICE OF BORDER 
 PATROL, CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                    SECURITY, WASHINGTON, DC

    Mr. Aguilar. Thank you, Mr. Chairman, good morning. As for 
me being here alone, we are accustomed to working out in the 
middle of the desert alone.
    The Chairman. I understand.
    Mr. Aguilar. So I feel very comfortable this morning here.
    The Chairman. Excellent.
    Mr. Aguilar. I want to thank you for having us here. It is 
certainly an honor and an opportunity to appear before you 
today to testify about North American cooperation on border 
security and to discuss the challenges, achievements, and some 
of the successes of border security along our Nation's borders.
    As you know, I am David Aguilar, the Chief of the U.S. 
Border Patrol. I would like to begin this morning by giving you 
a brief overview and basically a situation report on the status 
of our borders with Mexico and Canada. To begin with, Mr. 
Chairman, what we have is we are a part of the U.S. Customs and 
Border Protection. The CBP is responsible for the security of 
our Nation along the Canadian, the southern border with Mexico, 
and of course our coastal waterways.
    The important part here is that the U.S. Border Patrol is 
the entity that works between the ports of entry in very vast, 
very remote, and very desolate areas of our countries. The 
11,000 officers that we have are deployed along our Nation's 
southwest border with Mexico, approximately 9,000 of them. 
Another thousand officers or so are up on the northern border.
    [Chart.]
    What we have up here, Senator, is basically a depiction of 
what we refer to as our threat levels along our Nation's 
southern border with Mexico. These red arrows depict basically 
where our heaviest trafficked areas are into the United States 
from Mexico. Those red arrows account for about 61 percent of 
the 1.1 million apprehensions that we made last year along our 
Nation's borders with Mexico and Canada. The yellow arrows 
represent about 17 percent and about 22 percent into Texas out 
there.
    The number of narcotics apprehended within those areas last 
year were about 1.3 million pounds of narcotics apprehended 
along our Nation's borders with Mexico and Canada.
    Now, having said that, the current year to date we are on 
about a 1-percent increase as compared to last year in the area 
of illegal alien detentions this year. Fortunately, we are 
about 8 percent down in the area of narcotics as to what we saw 
last year.
    Along with the detentions that we have made, last year we 
made detentions of about 78,000 other than Mexicans detained 
along our Nation's borders. Currently we are seeing about a 
131-percent increase in the area of OTMs coming into our 
country. So far this year we have detained approximately 
119,000 other than Mexicans coming across our Nation's border 
with Mexico.
    I spoke about some of the challenges. Some of the 
challenges that we face is within that 1.1 million detentions 
that we made we are also apprehending a large number of 
criminal aliens coming into this country from Mexico and from 
Canada. From September of last year to basically at the point 
that we speak now, we have detained 104,000 criminally 
convicted aliens illegally entering our country across our 
borders.
    We have been able to detect these illegal entrants, 
criminal election entrants, by the use of some of the 
technology that has been deployed throughout the United States 
Border Patrol stations along our Nation's borders. One hundred 
four thousand criminal aliens that would have gone undetected 
previously without the addition of the technology that we now 
have in place.
    Some of the most trafficked areas along our Nation's 
southwest border with Mexico are Arizona and New Mexico, as 
depicted by these arrows out here. Last year, in the area of 
the Tucson sector there was approximately 589,000 arrests of 
illegal entries into Tucson sector. As we speak today, we are 
seeing a little bit of a decrease in the fact that we have 
implemented the Arizona Border Control Initiative in the State 
of Arizona. Since the beginning of the Arizona Border Control 
Initiative we have seen approximately a 30-percent reduction in 
the number of detentions that are occurring in the Tucson 
sector of the United States Border Patrol.
    There are several initiatives that we have instituted 
throughout our Nation's borders with Mexico and Canada. The 
IBETS program, for example, along our Nation's Canadian 
borders, Integrated Border Enforcement Teams, of which there 
are 15 regions across the Canadian border with the United 
States. We have 23 individual units operating along the 
Canadian border.
    We have a similar program on the southern border, the 
Mexican Liaison Units, that operate in close coordination with 
our Mexican counterparts and law enforcement agencies out 
there.
    We have a tremendous amount of operational information that 
is shared between the law enforcement agencies both on the 
Canadian border and on the southern border. We have several 
other initiatives that we have implemented. If you would like, 
when we have that opportunity for questions, is the Interior 
Repatriation Program, where we are removing some of the aliens 
that we apprehend on the Arizona border into the interior of 
Mexico. Expedited removal has now been instituted in Laredo and 
Tucson sectors and some of our other sectors along our Nation's 
border with Mexico to expedite the removal of other than 
Mexicans away from the border in an expeditious manner.
    Currently the U.S. Border Patrol apprehends about 3,000 
aliens per day, illegal entrant aliens per day, along our 
Nation's borders. The challenges are that we have a dynamic 
border, it is a very complex region of our Nation, there is a 
tremendous amount of vastness, remoteness, and environmental 
concerns out there.
    One of the dynamics that we have seen is that we have moved 
our operations from what we used to call urban environmental 
operations, where we used to deploy in the cities along our 
Nation's borders both north and south, and the flow has now 
changed into very rural areas of operation. That brings with it 
certain environmental concerns that we have to overcome. While 
we must be good stewards of our lands, we must control those 
illegal flows between the ports of entry into the United 
States.
    Mr. Chairman, the men and women of the U.S. Border Patrol 
are tasked with a complex, sensitive, and difficult job which 
has historically presented some tremendous challenges. Our men 
and women take on these challenges with vigilance, dedication, 
drive, desire, and a recognition of how important our job is to 
the security of our country, especially during these times.
    There is a recognition among our people of the significance 
of the job that they do, that which our country asks them to 
do. That job is nothing less than protecting our Nation's 
borders at a time in our history when the need to protect our 
borders has never been greater.
    At every opportunity that I speak to our officers, we speak 
to protecting America's borders, protecting America, and 
protecting our American way of life.
    Senator, at this point I will take any questions that you 
might have of me. But before that, I think I would be remiss if 
I did not thank you and the other members of this committee for 
the strong support for all the men and women of the U.S. 
Customs and Border Protection, including the Border Patrol. The 
500 new agents that you funded in the 2005 war supplemental is 
just one example of your continuing support and commitment to 
border security. We are grateful to you for that.
    [The prepared statement of Mr. Aguilar follows:]

Prepared Statement of David Aguilar, Chief, U.S. Border Patrol, Customs 
 and Border Protection, Department of Homeland Security, Washington, DC

    Chairman Lugar, Ranking Member Biden, and distinguished committee 
members, I am pleased to be here today, in my capacity as Chief of the 
Customs and Border Protection's (CBP) Office of the U.S. Border Patrol, 
and on behalf of the Department of Homeland Security's (DHS) Acting 
Undersecretary for Border and Transportation Security, to testify about 
North American Cooperation on Border Security and the many efforts of 
the Governments of Canada and Mexico to work with us toward the common 
security and economic well-being of North America.
    As you know, on March 23 in Waco, TX, President Bush, along with 
Canadian Prime Minister Martin and Mexican President Fox, unveiled the 
Security and Prosperity Partnership for North America (SPP), a 
blueprint for a safer and more prosperous continent. Through the SPP 
our leaders agreed on an ambitious security and prosperity agenda that 
will keep our borders closed to terrorists and open to trade. The SPP 
is based on the premise that security and prosperity are mutually 
supporting and reinforcing, and recognizes that our three nations are 
bound by a shared belief in freedom, economic opportunity, and strong 
democratic institutions. The three leaders instructed each nation to 
establish ministerial-level working groups and asked us to identify 
meaningful goals and deliverables within 90 days. The President asked 
Secretaries Chertoff and Gutierrez to lead our efforts on the security 
and prosperity ``pillars'' respectively.
    The purpose of the Security Agenda is to establish a common 
approach to security in order to protect North America from external 
threats, prevent and respond to threats within our countries, and to 
further streamline the secure and efficient movement of legitimate low-
risk traffic across our common borders.
    Nearly 2 weeks ago in Ottawa, Secretaries Chertoff and Gutierrez 
articulated our detailed plans to develop and implement the SPP. 
Together with their counterparts from Canada and Mexico, the 
Secretaries set out the path to further our common security and 
economic goals in an evolving and strengthened North American 
relationship.
    The SPP energizes other aspects of our cooperative bilateral 
relationships and sets the vision for trilateralizing the work ahead. 
The issues of immigration and trade disputes will be dealt with outside 
the SPP through congressional action and existing treaties and 
agreements.
    The Department was honored to participate in a recent session of 
the U.S.-Mexico Inter-Parliamentary Group to discuss the SPP and we 
recognize the importance of legislative support in each of our three 
countries to the success of this North American partnership.
              background to the security pillar of the spp
    Shortly after 9/11, the administration reviewed what we were doing 
together with Canada and Mexico to create ``smart borders'' for the 
21st century. We quickly set about the business of engaging in the 
Ridge-Manley Accords with Canada and the 22-point Border Partnership 
Plan with Mexico. These agreements articulated a vision of a modern 
border that speeds the legitimate flow of people and goods, secures 
common infrastructure, and filters threats to our safety and 
prosperity.
    As a result of this work, we have advanced our border agenda with 
Canada and Mexico in a number of respects such as improved collection 
of passenger and customs data, enhanced law enforcement cooperation, 
coordinated vulnerability assessments on critical infrastructure, and 
worked to coordinate visa policy for travel to North America.
    Notwithstanding the significant progress with our neighbors, we 
recognize there is more to do. The SPP aims to launch us to a new level 
of cooperation and commitment.
                             spp highlights
    To further North American security goals, the United States, 
Canada, and Mexico have reached commitments to implement common border 
security and bioprotection strategies; enhance critical infrastructure 
protection, and implement a common approach to emergency response; 
implement improvements in aviation and maritime security, combat 
transnational threats, and enhance intelligence partnerships; and 
implement a border facilitation strategy to build capacity and improve 
the legitimate flow of people and cargo at our shared borders. 
Comparable standards and compatible regimes developed under the SPP 
will result in collective improvements and enhancements that promote 
U.S. security objectives. The following are illustrations of the work 
that has been accomplished and other efforts underway.
Shared Watchlists and Integrated Traveler Screening Procedures
    The United States, Canada, and Mexico have agreed to strengthen 
information sharing related to terrorists and criminals. Effective 
information exchange among North American countries is essential to 
strengthening our capability to prevent acts of terror within and 
outside North America. Additionally, the United States and Canada will 
negotiate a visa lookout sharing agreement, to be finalized within 18 
months.
    The United States, Canada, and Mexico have also agreed to establish 
compatible screening standards for land, sea, and air travel, to 
identify high-risk travelers and cargo before they depart for North 
America. Further, recommendations will be made on the enhanced use of 
biometrics in screening travelers destined to North America.
    The United States and Canadian governments have agreed to exchange 
officers between their respective facilities, the National Targeting 
Center in the United States and the National Risk Assessment Centre in 
Canada, to help improve coordination and enhance information-sharing.
    On an ongoing basis, the SPP will enable all three countries to 
address and resolve gaps in cross-border information-sharing. 
Ultimately, our objective is for all travelers arriving in North 
America to experience a comparable level of screening.
Maritime and Aviation Security
    Our countries will also be working toward comparable standards for 
baggage and passenger screening, implementing no-fly programs 
throughout North America, and developing new protocols for air cargo 
inspection. Likewise, we will also be working to develop compatible 
maritime regulatory regimes and to strengthen information-sharing and 
coordinated operations in the maritime domain.
Preparedness and Incident Management Systems Integration
    The United States, Canada, and Mexico have agreed to transform 
North American preparedness for response to large-scale incidents by 
establishing protocols for incident management that impact border 
operations, within 12 months. The protocols will address maritime 
incidents, cross-border public health emergencies, and cross-border law 
enforcement response.
    The SPP countries have also committed to develop an interoperable 
communications system within 12 months, and to participate in 
preparedness exercises that will strenuously test these protocols. In 
addition, the three countries will participate in a preparedness 
exercise in anticipation of the 2010 Vancouver/Whistler Winter 
Olympics.
Science & Technology
    United States and Canadian authorities have completed a 
comprehensive Coordinated Risk Assessment to identify and prioritize 
major collaborative science and technology initiatives and are expected 
to complete their final report late this summer. Harnessing the science 
and engineering resources of our countries helps create the innovative 
technology capabilities required to enhance the safety and security of 
both nations.
Port Security
    Our three countries promoted the newly adopted World Customs 
Organization's Framework of Standards to Secure and Facilitate Global 
Trade, which for the first time in history establishes common standards 
for secure trade at all major international ports. We will work 
collaboratively to encourage implementation through capacity-building 
and technical assistance to other countries.
    The United States and Canadian officials conducted three port 
security exercises to evaluate joint response capability to terrorist 
attacks in the Great Lakes area. Moreover, the U.S. Coast Guard and 
Transport Canada completed 94 joint initial verification exams of 
vessels in the St. Lawrence Seaway and the Great Lakes, to ensure 
compliance with international security regulations.
    Beginning with the 2005 boating season, the United States and 
Canada have implemented a NEXUS-Marine pilot program in Windsor-Detroit 
for low-risk seasonal boaters to participate in a preenrollment 
inspection program.
North American Trusted Traveler Program
    All three countries have agreed to create a single, integrated 
program for North American trusted travelers by January 1, 2008. 
Individuals applying for trusted traveler status would be able to apply 
for the program and pay relevant fees in one transaction. Enrolled 
participants would have access to all established trusted travel lanes 
at land crossings, airports, and in marine programs. A single North 
American Trusted Traveler Program embodies the intent of the SPP to 
establish optimum security goals while accelerating legitimate cross-
border trade and travel. The United States will also be working 
cooperatively to identify Western Hemisphere travel document standards 
required under the Intelligence Reform and Terrorism Prevention Act of 
2004.
Border Enforcement
    The United States and Mexico will form joint intelligence-sharing 
task forces along the United States-Mexico border to target criminal 
gang and trafficking organizations and reduce violence along the 
border.
    The United States and Canada will coordinate maritime enforcement 
programs for the huge volume of boat traffic in our shared waterways.
    With the Government of Mexico, we will begin to establish a 
standardized Alien Smuggler Prosecutions Program, which expands upon 
previous efforts to identify and prosecute violent human smugglers.
Facilitated Flow of Legitimate Cargo and Travel Across Land Borders
    The United States, Canada, and Mexico have agreed to review our 
transportation and border facility needs, in partnership with 
stakeholders, and develop a priority plan for future port-of-entry-
related infrastructure investments.
    All three countries are considering programs to substantially 
reduce transit times and border congestion by partnering with public 
and private sector stakeholders to establish ``low-risk'' ports of 
entry for the exclusive use of those enrolled in our trusted trade and 
traveler programs. For example, over the next 2 years, the United 
States will determine the feasibility of converting an existing port of 
entry in Texas to the exclusive use of low-risk cargo and passengers, 
as well as building a new low-risk port of entry at Otay Mesa, CA.
    The United States, Mexico, and Canada are actively working to 
implement the first internationally endorsed import-export framework 
for radioactive materials that could be used to build a ``dirty bomb.'' 
These controls will be in force within 18 months. The enhanced import-
export controls, which are consistent with newly established 
international guidelines, are essential for preventing the fraud or 
diversion of these materials, widely used in medicine, research, and 
industry. Controls include notification on cross-border transfers and 
evaluation of whether the recipient is authorized to possess the 
materials to ensure that these materials are used for peaceful purposes 
only.
    The United States and Canada, along with local stakeholders, are 
working to reduce the transit times by 25 percent at the Detroit-
Windsor gateway, within 6 months, and all three countries are exploring 
ways to expand this innovative 25 Percent Challenge to other North 
American land border crossings within the next 18 months.
    By December of this year, the United States and Canada governments 
expect to establish a preclearance pilot program at the Peace Bridge, 
and within 6 months both countries will finalize a plan to expand the 
Vancouver NEXUS-Air pilot program to other United States air 
preclearance sites in Canada and examine the feasibility of expanding 
the eligibility for NEXUS-Air to include Mexican nationals.
    Along the United States-Mexico border, within the next 12 months, 
the United States will be adding SENTRI lanes in Calexico, CA; Nogales, 
AR; and El Paso, Laredo, and Brownsville, TX.
                      other bilateral cooperation
    While the SPP leverages and expands upon the strong relationships 
already in place between our countries to further our common security 
goals and achieve transformational improvements, it is important to 
highlight cooperative work that assists us in maintaining secure and 
effective borders.
Integrated Border Enforcement Teams
    Integrated Border Enforcement Teams (IBET) are multiagency field 
level groups of law enforcement officials dedicated to securing the 
integrity of the Canada/United States border while respecting the laws 
and jurisdictions of each nation. IBETs operate as intelligence-driven 
enforcement teams comprising federal, state/provincial and local law 
enforcement personnel. The multidisciplinary teams operate in an 
integrated land, air, and marine environment along or near the 
Canadian/United States border while respecting the jurisdiction of each 
nation. Presently there are 15 IBET regions with 23 teams.
    The mission of IBET is to enhance border integrity and security at 
our shared border by identifying, investigating, and interdicting 
persons and organizations that pose a threat to national security or 
are engaged in other organized criminal activity. IBETs incorporate a 
mobile response capability.
    Membership of the IBET consists of five core agencies with key law 
enforcement responsibilities at the border. The core agencies 
representing Canada are the Royal Canadian Mounted Police (RCMP), 
Canada Border Services Agency (CBSA). For the United States, the 
Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE), and the U.S. Coast Guard (USCG) make up the core 
agencies. Other federal agencies from each government have been invited 
to join the IBET initiative.
    Prior to September 11, 2001, the IBETs were informal in nature. 
With the Ridge-Manley Accords of December 2001, Canada and the United 
States committed to the expansion of the IBET initiative to ensure the 
comprehensive and permanent coordination of law enforcement and 
antiterrorism information-sharing and establish joint teams to analyze 
and disseminate intelligence and produce threat and intelligence 
assessments. Since that time, United States and Canadian governments 
provided funding specifically to address national security and other 
criminality occurring across and along our common border. The Canadian 
Government provided the RCMP $25 million annually for the next 5 years 
to lead the IBET initiative in Canada.
NEXUS and FAST Low-Risk Enrollment Programs
    CBP and Canada's Border Services Agency jointly administer NEXUS 
and FAST programs at all major crossings between the United States and 
Canada. These low-risk, vetted enrollment programs are an impressive 
example of cross-border cooperation to meet our common objectives of 
ensuring security and promoting commercial vitality. Enrollment in both 
programs is voluntary.
    NEXUS participants are entitled access to dedicated commuter lanes 
(DCL) at 11 border crossings. As of June, nearly 80,000 participants 
are enrolled in NEXUS. On the Northern Border, 57.3 percent of the 
total passenger traffic \1\ crosses at NEXUS-equipped Ports of Entry 
(POE). With completion of the planned expansion to 6 new locations \2\, 
an additional 13.9 percent traffic volume will be supported at DCL-
equipped POEs, for a total of 71.2 percent of the total traffic volume.
---------------------------------------------------------------------------
    \1\ Annualized Northern Border passenger traffic estimated from 
August 2004 to August 2005 is 65,624,998 based on 6 months historical 
crossing data.
    \2\ NEXUS expansion ports include Houlton, ME, Calais, ME, 
Alexandria Bay, NY, Sault Ste Marie, MI, International Falls, MN, and 
Pembina, ND.
---------------------------------------------------------------------------
    The Free and Secure Trade (FAST) program is a harmonized highway 
commercial process for preapproved, low-risk importers, shippers, and 
drivers. FAST began in December 2002 in Detroit, MI, and has since 
enrolled over 55,000 commercial drivers. FAST processing is located at 
12 major crossings, including 4 locations with dedicated FAST lanes.
Joint Targeting Initiative (JTI)
    In early 2002, CBP and Canadian customs officials established the 
Joint Targeting Initiative (JTI) to ensure the security of cargo 
movements across the United States-Canada border. Under the JTI, each 
country's specialists jointly target high-risk containers at the first 
point of arrival in North America. Currently, JTI is effective at the 
ports of Montreal, Halifax, Vancouver, Seattle, and Newark, enabling 
officers from both countries to conduct risk assessments of intermodal 
marine containers arriving at these locations.
    We are now moving forward to coordinate our container targeting 
efforts at overseas ports. Working collaboratively to prevent threats 
to North America, Canadian and DHS officials will conduct risk 
assessments on cargo loaded at foreign ports.
Arizona Border Control Initiative Phase II
    Although significant gains were made in the first year of the 
Arizona Border Control Initiative (ABCI), which was conducted March 16, 
2004, to September 30, 2004, illegal cross-border traffic and smuggling 
organizations continue to operate along the Arizona/Sonora border. 
These criminal organizations use available Mexican and United States 
infrastructure (routes of egress, staging areas, and transportation 
hubs), such as Hermosillo, Sonora, Mexico, and Phoenix and Tucson, AR. 
Decades-old smuggling networks connect Sonora and Arizona. In areas 
where infrastructure did not previously exist, smugglers have 
established the necessary means to support their criminal enterprises. 
Smugglers also exploit the high levels of legitimate commercial cross-
border traffic in southern Arizona in an effort to blend in with the 
legal flow of traffic.
    The Arizona Border Control Initiative Phase II began operations on 
March 25, 2005, representing a massive Federal law enforcement effort 
to gain greater operational control of the Arizona border. Phase II 
builds upon the results of last year's ABCI and directly supports DHS' 
priority antiterrorism mission--preventing terrorists and terrorist 
weapons from entering the United States--by reducing the flow of 
illegal aliens and disrupting smuggling operations.
    Under ABC Initiative Phase II (ABCI Phase II), DHS is significantly 
increasing personnel, doubling aerial support, increasing the use of 
``smart border'' technologies, and continuing to strengthen 
partnerships with State, tribal, and local law enforcement. The 
increased aviation operations and personnel supports DHS' priority 
mission of antiterrorism, detection, arrest, prosecution, and 
deterrence of all cross-border illicit trafficking along the Arizona 
border.
    In addition, ICE's Detention and Removal Operations (DRO) will 
continue to build upon operational efficiencies for alien removals in 
Arizona. ICE's Phoenix field office leads the Nation in removals of 
illegal aliens. In the fiscal year 2004, more than 40,000 illegal 
aliens were detained and removed through administrative and judicial 
proceedings; nearly half were criminal aliens.
Expansion of Expedited Removal
    The United States continues to experience a rising influx of other 
than Mexican nationals (OTMs) illegally entering the country. 
Apprehensions are running at a rate of 175 percent for FY05 over FY04's 
record number of OTM apprehensions on the southwest border, and 131 
percent over the record national FY04 OTM apprehension figure of 
75,371. The exponential growth in the apprehension of OTM illegal 
entrant aliens, and, in most cases their subsequent release, is a major 
impediment to the removal process. Currently, Border Patrol places most 
of these apprehensions in removal proceedings before an Immigration 
Judge. To help streamline the removal process, DHS expanded the use of 
Expedited Removal proceedings (ER) for OTMs, initially in the Tucson 
and Laredo sectors. ER proceedings, when contrasted with traditional 
removal proceedings, shorten the duration of time spent in detention 
facilities and the practical elimination of time spent getting ready 
for, and appearing before, immigration courts and judges.
    Both the Laredo and Tucson Sectors are currently utilizing ER to 
streamline the removal process. The deterrence effect of the ER process 
on OTM illegal entry may clearly be seen when comparing these two 
sectors with sectors without this removal process. The reducing impact 
of ER on OTM apprehension rates, as compared to other sectors is clear. 
This is especially dramatic with Brazilian OTMs. In both the Laredo and 
Tucson Sectors, the lower rates of apprehension for OTMs contrast with 
those of neighboring sectors that have not been using ER.
    Building upon its success in Tucson and Laredo Sectors since 
September 2004, DHS expects ER and the associated mandatory detention 
pending removal to their country of nationality will become a 
significant tool to deter future illegal crossing between the ports of 
entry, particularly for other than Mexican (OTM) nationals who transit 
through Mexico.
    Secretary Chertoff has approved expanding the use of ER to 
additional Border Patrol sectors upon satisfactory completion of 
training and within the parameters of available detention space. ER is 
now used in the Rio Grande Valley (formerly McAllen) as well as in 
certain circumstances Yuma, El Centro, and San Diego sectors (those 
aliens who have illegally reentered the United States while subject to 
a prior Order of Exclusion, Removal, or Deportation while still meeting 
all other criteria for ER). Challenges to full and successful 
implementation include the availability of detention space and 
transportation for aliens placed in ER proceedings.
    CBP has learned valuable lessons from the expansion of ER to Tucson 
and Laredo Sectors. First, when contrasted with traditional removal 
proceedings, ER proceedings dramatically shorten the duration of time 
spent in detention facilities. Second, the ER process is reducing OTM 
apprehension rates in Tucson and Laredo, and we anticipate a similar 
effect as it is expanded to McAllen.
                 other than mexican (otm) apprehensions
    In the committee letter of invitation to testify, you expressed 
particular interest in OTM nationals who cross our southern land 
border. As I previously noted, the surge of OTM nationals illegally 
entering the United States has increased dramatically. At the current 
rate, we calculate OTM apprehensions will annualize at 148,000.
    Currently, the Border Patrol places most OTMs whom they apprehend 
in removal proceedings before an immigration judge. All OTMs subject to 
mandatory detention are detained pending completion of removal 
proceedings. Examples of aliens who are subject to mandatory detention 
include aggravated felons and Special Interest Aliens (SIAs). OTMs not 
subject to mandatory detention may be released on their own 
recognizance or a bond.
    It is important to clarify that the Department defines the term SIA 
as those aliens with potential ties to terrorism. We monitor 
intelligence related to this SIA population, watching carefully the 
dynamics and changes in travel patterns.
    This unprecedented influx of OTMs is a source of friction for the 
DHS removal process, straining further our detention capabilities and 
legal program. It has associated effects on the Department of Justice, 
Executive Office for Immigration Review, and the Office of the Federal 
Detention Trustee.
    The Department recognizes the need to disrupt the increasing flow 
of OTMs. There is no single approach and we must work in partnership 
with other Government agencies. Expedited removal, the Arizona Border 
Control Initiative Phase II, and information-sharing, are among the 
tools necessary to confront this challenge and break the cycle of OTM 
passages to our country.
    Smuggling and human trafficking are some of the root causes for the 
upswing in OTM movements through Mexico and into the United States. We 
continue our work with Mexico to address these problems.
    Additionally, we know that visa policy coordination between the 
United States and Mexico is part of the answer. Converging visa regimes 
is critical to a shared vision of a continental security strategy that 
prevents high-risk travelers from entering our countries, The SPP 
provides renewed energy for us to take appropriate steps to prevent 
smugglers from exploiting visa free travel privileges to transport 
victims to North America. For example, there are currently over a dozen 
countries whose nationals are permitted to travel visa free to Mexico 
that would be required to obtain a visa to come to the United States.
    Yet there is more to a serious discussion about visa policy 
coordination than lifting or imposing a visa on particular countries. 
We must effectively share relevant information and standardize 
screening procedures to ensure comparable visa decisions. If the United 
States has information that a particular visa applicant is using an 
alias or in possession of a fraudulent travel document, we want Canada 
and Mexico to apply this same information to its visa decisions. No 
country in North America should issue a visa to a traveler known to be 
a threat to our common security. Sharing appropriate information and 
refining screening techniques to prevent visa applicants from 
concealing their true identities is a key ingredient to keeping the 
continent secure from high-risk travelers.
    Among the SPP commitments, within 9 months we will complete 
benchmarks related to procedures and policies for visitor visa 
processing, including security screening, visa validity, and length of 
stay.
                               conclusion
    In sum, Mr. Chairman, DHS recognizes the enormity of the problems 
that we face to protect America against those who seek to harm us and 
undermine our democratic way of life. The challenge is all the more 
daunting were we to work alone. Therefore, we are working actively and 
energetically with our neighbors to improve our ability to detect 
external and internal threats.
    Thank you for this opportunity to testify before the committee. I 
would be happy to take any questions you may have at this time.

    The Chairman. Well, Chief, you do have our support and I 
appreciate very much those thoughts that you have just 
expressed.
    Let me ask first of all, because you have commented, there 
has been some decrease in narcotics apprehensions and 
importations, at least this particular year. One of the 
concentrations of our legislative effort is to recognize the 
problems that come across the southern border, Mexico, from 
Guatemala, Belize. First of all, to what extent has the 
antidrug assistance that the United States has given to 
Guatemala or Belize, in your judgment, made a difference? Are 
we effective in this? Does it affect your work in any way as 
you perceive it?
    Mr. Aguilar. At any point that we can push our borders out 
and provide assistance to other countries, of course, it is 
very helpful to us. One of the things that we have seen is 
pretty much a constant across our Nation's southern border with 
Mexico. I believe there has been a report, and I have not seen 
it, I have just been briefed on it, that DEA has now accounted 
for over 92 percent of all the narcotics coming into the United 
States are coming across our Nation's border with Mexico, 
transiting through Mexico----
    The Chairman. 92 percent?
    Mr. Aguilar. Yes, sir; that is my understanding, yes.
    So at any point that we can provide assistance to some of 
these other countries, it is, of course, in our interest. But 
the fact of the matter is that narcotics trafficking continues 
at a very high rate. At this point in time, like I said, we are 
down by about 8 or 9 percent compared to last year, but we must 
bear in mind that last year we did apprehend over 1.3 million 
pounds of narcotics coming across our borders.
    The Chairman. So that reduction is from a very high figure, 
unfortunately.
    Mr. Aguilar. Yes, sir.
    The Chairman. What comment could you make as to the Mexican 
counternarcotics efforts? And in answering that question, to 
what extent would there be, potentially, some acceptance of 
technical assistance from the United States? The previous 
witnesses have pointed out many times that these issues are 
selected, I think Mr. Castaneda said, sort of salami-style, as 
opposed to a more composite package, and that they are less 
acceptable.
    In a package of legislation, what are the prospects for 
strengthening Mexican antinarcotics efforts, as I say, perhaps 
even with technical assistance from the United States?
    Mr. Aguilar. One of the things that I have seen--and by the 
way, Senator, I have spent the last 27 years of my life in the 
Border Patrol. I have to tell you that from the perspective of 
improvement, if you will, there has been a tremendous amount of 
improvement in the area of liaison and working coordination 
with Mexican law enforcement agencies. That is something that 
has been very beneficial, I think, to our Nation and to Mexico 
also.
    Having said that, the increase in targeting of criminal 
organizations in very recent past--we have seen Mexico, with 
Operation Safe Mexico, concentrating on criminal organizations 
operating in places such as Nuevo Laredo, Matamoros, Renosa, 
Mexicali, and some of these other areas that have been heavily 
trafficked by narcotics organizations.
    In speaking to some of the higher echelon law enforcement 
representatives, they have asked for our assistance when these 
operations are ongoing, and we have been successful in 
coordinating our efforts to ensure that, to the degree 
possible, we take on a binational effort on impacting on these 
criminal organizations.
    As far as technical assistance goes, I think it would be 
beneficial. As to how much they would, Mexico would ask for or 
would identify as a need, I would leave it up to them. But I 
certainly think that we could, as a Nation, offer up to Mexico 
a lot of technical expertise in those areas.
    The Chairman. So we would make that offer and then, in the 
spirit of cooperation, they would make decisions as a sovereign 
country of their acceptance? As you say, there has been a 
beefing-up, as you have observed over the last 27 years, of 
Mexican efforts in this area?
    Mr. Aguilar. That is a definite yes, sir.
    The Chairman. That is an encouraging fact all by itself.
    How about Guatemala and Belize? What kind of antinarcotics 
efforts are they making? And in the same spirit, are there 
technical aspects that we might be able to offer that would be 
of help there, because that appears to be another part of this 
equation?
    Mr. Aguilar. Yes, sir. Guatemala, for example, has in the 
past worked with the United States Government in asking for our 
support. We have deployed--specifically to the Border Patrol, 
we have deployed some of our special teams to assist in 
teaching, training, and working with some of the foreign 
governments out there specifically in the areas of narcotics 
interdiction.
    Our BORTAC unit, Border Patrol Tactical Unit, deploys 
foreign at the request of some of these foreign nations for the 
purposes of specifically targeting the criminal organizations 
involved in narcotics trafficking. Guatemala, for example, in 
the past has been a recipient of that technical expertise. We 
continue to offer it up and we would continue to look forward 
to providing that kind of help; yes, sir.
    The Chairman. Now, on the very important chart that you 
have presented to the committee, as you pointed out, the three 
red lines approaching New Mexico and Arizona are routes of 61 
percent of those you have apprehended. I presume those are 
approximate routes; they are not roadways. Are they, more 
precisely, these corridors that people employ?
    Mr. Aguilar. You bring up a very good point, Senator. Those 
are depictive and only approximate points. What the criminal 
organizations utilize, though, is what we refer to within the 
Border Patrol as infrastructure leading up to our border, 
highways coming in from Mexico or South-Central America.
    The Chairman. Right.
    Mr. Aguilar. And then what we refer to as decision points, 
decision points in Mexico as to where they are going the hit 
our border and stage as a jump-off point into the United 
States.
    Unfortunately, one of the areas that they look for are some 
of our metropolitan or urbanized areas, places such as: El 
Paso; Tijuana; Nogales, Arizona; Nogales, Sonora; and things of 
that nature. Then, of course, what they look for secondarily is 
staging areas on the immediate north side of the border for 
staging purposes and then the points of egress into--ingress 
into the United States to get to their final destinations out 
here.
    That is one of the reasons that the Border Patrol deploys, 
of course, right on the line with what we call an enforcement 
zone along the border, and we also deploy in what we refer to 
as defense in depth, where we utilize our checkpoints, we work 
at the transportation hubs, in order to address the means of 
ingress into the United States and to take away that 
infrastructure that the criminal organizations utilize to 
facilitate the movement of illegal aliens, narcotics, and 
anything else of contraband.
    The Chairman. In your 27 years of experience, and that of 
some of your colleagues, you have been able fairly well to 
chart, as you say, the infrastructure, that is roadways, that 
persons might utilize, plus, as you have suggested, 
pragmatically the approach to urban areas and this in-depth 
strategy where persons go from there to find various 
objectives.
    Mr. Aguilar. Yes, sir.
    The Chairman. By this time we have a fairly good idea of 
where these objectives are in the hinterland of the United 
States, so that you then graph, I suspect, the most probable 
courses, understanding that people will deviate. I mention this 
simply because, although it is common sense to you, other 
Americans taking a look at this type of thing need to know that 
a lot of experience has gone into your charting, where you can 
anticipate encounters and interceptions of people successfully.
    Mr. Aguilar. Yes, sir.
    The Chairman. Let me just ask a specific question, because 
in a conference that I attended in Mexico earlier this year, 
testimony was given by some very gifted people at the 
University of El Paso, TX, about the fact that even in the 
midst of all of the controversy that we are discussing today, 
there were well over 1,000 persons, as I recall, and maybe 
upward of 1,500, students, who live in Mexico, who regularly 
come to the University of El Paso in Texas, crossing the river 
every day and returning home every night.
    I think many of us were struck by the fact that in this 
area of El Paso, there are pragmatic ways for life to go on, 
for people who are not only very friendly and productive with 
each other, but at the same time in this case students who are 
studying in this great university and enriching the background 
of diversity there.
    First of all, how does this work? How are you able to get a 
thousand or more students from their homes every morning off 
to, not to work, but to study, and back again at night, in the 
midst of all the turmoil that you are describing, these 
interceptions of drug dealers and illegal immigrants and what 
have you?
    Mr. Aguilar. Well, fortunately, Senator, the group of 
students that I believe you are referring to are students that 
basically cross through our ports of entry.
    The Chairman. Yes.
    Mr. Aguilar. Our very busy ports of entry, and they utilize 
the visas available for them to come.
    The Chairman. So they have visas and they can identify 
themselves each morning and what have you?
    Mr. Aguilar. Yes, sir. They come across the ports of entry, 
yes. Now, that was not always the case. In El Paso 
specifically, there was years when in the past where students 
would literally come across between the ports of entry to come 
to school out here. That is how uncontrolled the border was.
    The Chairman. I see.
    Mr. Aguilar. But El Paso is one of the urban areas that we 
have now brought under control by the proper application of 
technology, personnel, and infrastructure to basically utilize 
those resources to bring that quality of life that we are 
looking to bring to all of these urban areas. That, in fact, is 
one of the objectives of our national strategy, and that is to 
improve the quality of life of our border communities, thereby 
reinvigorating the economies of those communities and make a 
better life, not only for the people on the United States side, 
but also for the persons on the Mexican side, because one of 
the things that is seldom spoken about is that when these 
criminal organizations entrench themselves on the south side of 
the border or on the Canadian side, on the north side, if you 
will, is that they degrade the quality of life because of the 
means that they use to facilitate their smuggling into the 
United States of aliens and narcotics.
    So that there is a social impact on both sides of our 
borders. So when we deploy and we bring a level of operational 
control to the borders, that improves the quality of life on 
both sides of the border.
    The Chairman. I appreciate that testimony because I 
receive, from time to time, letters from Americans who live in 
Arizona, New Mexico, Texas, who know of my interest in this 
subject, and who bring up more than anecdotal material as to 
how the enhancement of the quality of life on the border on 
both sides has been helped by the work that you are doing.
    This is usually an untold story. For example, in El Paso, 
leaving aside the mention of the students, the amount of 
commerce involved, the employment, the productivity, the GNP of 
the El Paso area, is greatly enhanced by the sophistication of 
the border services that you are offering and that perhaps in 
various ways Mexican officials are offering.
    I mention that because that is very important. We have 
talked about this generally today, about how the prosperity in 
both Mexico and the United States could be enhanced if we are 
able to work our way through all the minutia and to the heart 
of the problem of gangs or criminals or those who are deviant. 
But it is a tough thing to do.
    You are on the line literally in trying to make that 
happen. So the question that we all keep looking at, whether we 
are legislators or even more importantly administrators, as you 
are, is in terms of contact with human beings day by day. How 
do we enhance this? That is why I appreciate very much your 
experience, and the wisdom you bring to our hearing.
    Mr. Aguilar. Thank you, sir.
    The Chairman. At this point, I will conclude the hearing 
with thanks to all the witnesses. We have had a rich menu of 
our own legislative leaders, as well as former Foreign 
Ministers of Mexico and Canada, and now your expert testimony. 
We appreciate all of this. The hearing is adjourned.
    [Whereupon, at 11:56 a.m., the committee was adjourned.]
                              ----------                              


             Additional Statement Submitted for the Record


 Statement of the North American Business Committee of the Council of 
                              the Americas

    The North American Business Committee (NABC), a standing committee 
of the Council of the Americas which has been dedicated for 40 years to 
promoting democracy, open markets, and the rule of law throughout the 
Western Hemisphere, appreciates the opportunity to submit testimony for 
the record on North American border cooperation.
    Even as the recent London bombings are a painful reminder of the 
challenges we face in the fight against those who would harm us, our 
shared borders with Mexico and Canada continue to be vulnerable points 
of entry into the United States and a potential threat to our national 
security. Each day, U.S. borders are under enormous pressure. Lack of 
personnel, equipment, and internal and cross-border coordination 
contributes to long delays and keeps the U.S.-Mexico and U.S.-Canada 
borders porous (likewise, the U.S. border with the Caribbean Basin).
    While appreciating the enormity of the task as well as taking note 
of concrete progress that has clearly been made by all three 
governments and their stated commitments for further actions, focused 
attention to border issues by the United States, Canada, and Mexico 
must continue and, indeed, intensify. Greater coordination of the 
customs process, additional investment in technology and equipment, and 
development of a new model of joint ventures with the private sector to 
encourage the development of border infrastructure would all help 
support the volume of goods and services that cross internal North 
American borders. Better coordination of cross-border law enforcement 
and intelligence sharing would help address concerns about illegal 
activities. Streamlining coordination of the maze of U.S. federal, 
state, and local agencies with jurisdiction of specific aspects of 
border activities must be prioritized; for example, the current 
Presidential Permit process whereby each government agency has veto 
authority over individual border projects simply does not work. 
Additionally, establishing preclearance procedures and moving border 
inspection stations away from the borders themselves would reduce 
congestion while allowing law enforcement authorities to focus on 
sealing the border against the flow of illegal narcotics, terrorist 
activities, and people trafficking.
    Such steps are necessary, because in order for North America to 
compete fully and effectively with emerging nations in Asia as they 
reach economic maturity in 15-20 years or less, North America must 
eventually become a virtual borderless economy for goods and services 
produced therein. This vision may not be practical today, given 
Mexico's level of development relative to the United States and Canada, 
but it is a goal worthy of working toward, with purpose, over time.
    Additionally, much of the pressure on the border is a result of 
migration flows--both legal and illegal--from Mexico to the United 
States. Reducing people flows and regularizing those that remain will 
reduce pressure on the border, directly assisting efforts to make the 
border work better. Undoubtedly, illegal immigration stems from a 
perceived lack of economic opportunity in Mexico and other countries, 
but the unmanageable flow of persons now estimated at 400,000 per year 
entering and proceeding to live and work in the United States 
undetected, poses a significant potential threat to North American 
security. After all, if undocumented workers can get into the United 
States and live undetected, it must be assumed that those highly 
motivated to harm the United States can also get into the country 
undetected and remain.
    A better way must be found to allow needed workers into the United 
States, and to treat them fairly and with dignity, while keeping U.S. 
borders secure and discouraging nonlegal entrants. One way would be via 
implementation of a temporary worker program, understanding that it 
would be extraordinarily difficult to issue enough visas to meet the 
demand and would therefore not completely cut off illegal immigration 
from Mexico. Still, such a program would equally benefit Mexican 
nationals seeking a better life in the United States and the industries 
that need to hire them for hard-to-fill jobs. Under such a plan, both 
Mexican workers and their U.S. employers would be held accountable for 
taxes and compliance with the law; penalties would be strictly 
enforced. This would also allow national security agencies to keep 
better track of who is entering and exiting the United States and allow 
law enforcement agents to focus on preventing criminal activities.
    It must be stressed that this arrangement would not grant U.S. 
citizenship, but would nonetheless eliminate most negative aspects of 
being an illegal immigrant living in the shadows of a formal economy, 
reduce cultural stigmas, and increase regional security. And unlike an 
amnesty program, this proposal would reduce incentives of staying in 
the United States illegally, because it would allow people to return 
home to Mexico without fear of being apprehended at the border, and it 
would also ensure that, as legal residents, workers would be entitled 
to the benefits of participating in the legal economy, including the 
rights and protections afforded all workers in the United States and 
Canada. To make this labor mobility plan viable, Mexico must commit to 
stronger, more proactive protections of its own borders: it should 
actively work with U.S. authorities to seal the U.S.-Mexico border to 
illegal activities, while working in addition to seal its own southern 
borders with Belize and Guatemala, a significant entry point of third-
country migrants heading to the United States. Ultimately, the 
establishment of a North American security perimeter is the most 
desirable outcome.

                                  <all>

</pre></body></html>
